<html>
<title> - [H.A.S.C. NO. 111-59]NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2010 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED ELEVENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 111-59]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2010

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

             BUDGET REQUEST FROM THE DEPARTMENT OF THE ARMY

                               __________

                              HEARING HELD

                              MAY 14, 2009


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                  U.S. GOVERNMENT PRINTING OFFICE
57-399                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          JOHN M. McHUGH, New York
SOLOMON P. ORTIZ, Texas              ROSCOE G. BARTLETT, Maryland
GENE TAYLOR, Mississippi             HOWARD P. ``BUCK'' McKEON, 
NEIL ABERCROMBIE, Hawaii                 California
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ELLEN O. TAUSCHER, California        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
DAN BOREN, Oklahoma
                    Erin C. Conaton, Staff Director
                 Mike Casey, Professional Staff Member
                  Jon Wason, Professional Staff Member
                    Caterina Dutto, Staff Assistant










                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, May 14, 2009, Fiscal Year 2010 National Defense 
  Authorization Act--Budget Request from the Department of the 
  Army...........................................................     1

Appendix:

Thursday, May 14, 2009...........................................    33
                              ----------                              

                         THURSDAY, MAY 14, 2009
  FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                    FROM THE DEPARTMENT OF THE ARMY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McHugh, Hon. John M., a Representative from New York, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Casey, Gen. George W., Jr., USA, Chief of Staff, U.S. Army.......     7
Geren, Hon. Pete, Secretary of the Army..........................     4

                                APPENDIX

Prepared Statements:

    Geren, Hon. Pete, joint with Gen. George W. Casey, Jr........    40
    Skelton, Hon. Ike............................................    37

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Boren....................................................    80
    Ms. Giffords.................................................    78
    Mr. Lamborn..................................................    75
    Mr. Loebsack.................................................    77
    Mr. Nye......................................................    80
    Mr. Wittman..................................................    76
 
  FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                    FROM THE DEPARTMENT OF THE ARMY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Thursday, May 14, 2009.
    The committee met, pursuant to call, at 2:34 p.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good afternoon. The House Armed Services 
Committee meets now to receive testimony on the fiscal year 
2010 Army budget request. Our witnesses today, the Honorable 
Pete Geren, Secretary of the Army, and a former Member over 
here; and General George Casey, Chief of Staff of the United 
States Army. And we welcome you and thank you for coming to our 
hearing.
    Afghanistan and Iraq have driven big changes for the Army. 
New doctrine manuals on counterinsurgency, stability 
operations, and security forces assistance have all been issued 
in the past few years, and they all point to the increasing 
emphasis on balancing the effort of the Army between 
traditional and conventional war and stability operations and 
irregular warfare. And this, too, may drive force structure 
changes as the Army looks to build the Advise and Assist 
Brigades that the President mentioned as part of changing our 
mission in Iraq.
    What these will look like, whether we institutionalize 
these brigades, and if and how they will be used in the future 
are all significant questions.
    Budgets, as we often say, are the actual demonstration of 
our strategy in the way ahead. I think the Army budget that has 
been submitted certainly points to big changes. The 
cancellation of the Future Combat Systems (FCS) vehicle, the 
decision to build only 45 instead of 48 Active Duty combat 
brigades, and the hand-off of the Joint Cargo Aircraft (JCA) 
program to the Air Force are just a few of the very significant 
changes in our budget. I am sure our committee will have many, 
many questions about these program changes.
    At the same time we ask about the future, we shouldn't lose 
sight of the present in doing so. Army readiness levels are 
still unacceptably low. I hope we will hear today about how we 
will fix that readiness problem, particularly since the budget 
appears to flat-line operations and maintenance (O&M) funding.
    Army recruitment and retention, on the other hand, seem to 
have recovered significantly from the levels of a few years 
ago, although it remains to be seen what happens when the 
economy begins to recover. In the past we moved too 
aggressively to cut funding for recruitment and retention, and 
I hope that we will hear more about this today.
    Back home this budget appears to continue the commitment to 
take care of our troops and their families by funding a 2.9 
percent pay raise and increasing funding to care for the 
wounded and the injured. Best of all, this budget moves these 
funds to the base budget, institutionalizing them for the 
future.
    Family support programs, such as child care and spousal 
support, also fare well. I have long said that our people and 
their families are our first priority. I am glad that this 
budget appears to adopt that point of view.
    In short, the budget signals many changes for the future. 
Some, like the continuing commitment to our personnel, are 
welcome. Other decisions, however, will no doubt generate many 
questions. Decisions made today will develop the Army of the 
future and should not be entered into lightly. We have heard 
the general talk about this at length. We need to understand 
the future environment that is envisioned and the way these 
programs will address them. I hope our witnesses here today 
will help us.
    I now turn to my friend, the Ranking Member, the gentleman 
from New York, John McHugh.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 37.]

  STATEMENT OF HON. JOHN M. MCHUGH, A REPRESENTATIVE FROM NEW 
       YORK, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McHugh. Thank you, Mr. Chairman. It is good to see you 
again, Mr. Chairman. We have all spent a lot----
    The Chairman. It has been a while since we have seen each 
other.
    Mr. McHugh. Yeah. A little time together in the last 36 
hours or so. I was quipping earlier, about this time, I want to 
know if I need a shave, I look at Ike Skelton's face.
    But we are honored, of course, to have our distinguished 
panelists, as you noted, Mr. Chairman, and we have had on the 
plus side some opportunity to say thank you to some remarkable 
leaders. And today this afternoon's panel is certainly no 
exception. General Casey and Secretary Geren have been 
incredible leaders in an Army whose success story has been, 
first of all, a tribute to that leadership, but second of all, 
a real testament to the men and women who wear the uniform of 
the United States Army. And it is remarkable. In the midst of a 
war in two very different theaters, the Army has completely 
transformed its structure of the forces, adapted to the enemy 
and environment, and moved ahead with its modernization. And 
those are hard things to do under the best of circumstances, 
and obviously, these have not been the best. They have been 
very challenging circumstances.
    And gentlemen, thank you, and please convey all of our 
deepest appreciation to those brave men and women who wear the 
Army uniform for all that they have done and continue to do in 
remarkable ways each and every day.
    Two years ago, gentlemen, both of you testified before this 
committee regarding the Army's strategic initiatives. You, I 
felt, made it very clear that the Army was out of balance. It 
was not a secret, not a surprise. You made it clear as well 
that as you continued to shepherd our way through those 
challenges, that it would probably take three to four years to 
reacquire that balance, and in the process having the Army seek 
to achieve four objectives: sustain, prepare, reset, and 
transform.
    And the question, as the Chairman, I think, rightly 
outlined is does this budget request fail or succeed in the 
many choices that it had to make to support those efforts? And 
just let me pick off a few areas that I think we need to 
explore and obtain your opinions on.
    The fiscal year 2010 Army top-line request is advertised as 
being rather significant, 2.1 percent increase over 2009. But 
that could be somewhat misleading, that when you add together 
the funding that was received in the past through 
supplementals, and the drop-off as we migrate those 
supplementals into the base, it looks more like the fiscal year 
2010 Army budget will be funded at something around $4 billion 
less than fiscal year 2009.
    Secondly, those costs associated with end-strength, 
increases, and reset, which are so important, our men and women 
in uniform, the heart and soul, our efforts to grow this force 
that many on this committee, in fact the vast majority on this 
committee, have worked hard to achieve, has been funded through 
supplemental appropriations, approximately $20 billion a year.
    I support doing away with the supplementals. I think the 
President and Secretary Gates have taken an important step 
forward. But as, again, we consider that migration into the 
base, the Army's budget and supplemental, now called the OCO, 
the Overseas Contingency Operation Account, doesn't appear to 
have increased accordingly. In fact, the fiscal year 2010 OCO 
funds reset at $11 billion. We have more forces going to 
Afghanistan, more equipment returning from Iraq, and that reset 
reduced by several billions of dollars.
    In that same vein, procurement accounts for the Army, not 
including JIEDDO, or the Joint Improvised Explosive Device 
(IED) Defeat Organization, in the past were funded at some $61 
billion in 2008, $37 billion in 2009, yet the request for 
fiscal year 2010 totals about $30 billion.
    I remember very clearly, Mr. Chairman, and you may recall 
as well, that then-Chief of Staff General Schoomaker coming to 
this very room and telling us the Army entered the post-9/11 
world with a $56 billion procurement shortfall. He called it 
holes in the ark. And the question, therefore, is pretty 
simple: Does this budget signal the start of yet another 
procurement holiday, or does it represent an equitable balance 
of hard choices?
    Just a couple of other areas of concern. The research and 
development (R&D) accounts were funded at $12 billion in 2008 
and 2009, yet the 2010 request has been decreased to $10 
billion. And while the President and the Secretary of Defense 
have said they support the Army's plan to grow the force, 
something I credit the President with, is putting into one of 
his highlights of his proposal a 2.1 percent increase when 
adjusted for inflation, causes me some concern that the Army 
might have to pay for much of this increase out of hide.
    And lastly, before the QDR, the Quadrennial Defense Review, 
has really even begun, a decision has been made, as the 
Chairman referenced, to cut projected Army force structure by 
three brigade combat teams (BCTs). Was this is a cut, again, as 
a matter of hard choices, on balance, or was it what I fear--I 
will rephrase, I hope--it is not, and that is a lack of 
commitment to growing the force? And, Chief, you and I talked 
about this, and I think it is important for you to have your 
views placed on the record. I think they are enlightening.
    So, in conclusion, gentlemen, we look forward to your 
comments. All of us stand together as one team. That is the 
pride of our Nation's military forces, and it is also, frankly, 
the pride of this committee that we work in ways that, for all 
the differences we might bring to the table, we understand our 
unified commitment has to be to those men and women in uniform 
that serve us so bravely. So again, gentlemen, thank you for 
all you do. And with that, Mr. Chairman, I will yield back the 
balance of my time.
    The Chairman. I thank the gentleman.
    During our hearing yesterday with the Secretary and Admiral 
Mullen, as well as this morning when we had the Navy and Marine 
Corps here, we were interrupted by votes on the floor, and I 
anticipate that might happen again. So we ask you to bear with 
us. We shall return and continue our hearing.
    Mr. Secretary.

      STATEMENT OF HON. PETE GEREN, SECRETARY OF THE ARMY

    Secretary Geren. Thanks, Mr. Chairman and Congressman 
McHugh. It is truly an honor for General Casey and me to appear 
before you and discuss our United States Army, an Army that has 
been built on a partnership between this great institution and 
the soldiers of our Army, a partnership that goes back to the 
First Continental Congress and continues to this day.
    We provided the committee a full posture statement. I ask 
that that be introduced into the record.
    The Army family suffered a horrible tragedy in Baghdad, 
Monday, two days ago, and I know all of our prayers and 
condolences go out to the loved ones of those who lost their 
lives in that incident. Sergeant John Russell has been charged 
under the Uniform Code of Military Justice (UCMJ) with five 
counts of murder. I know many of you have questions concerning 
that tragic incident. However, because of the role of service 
secretaries in the military criminal justice system and 
concerns about command influence, we won't be able to discuss 
that in this hearing today. I just wanted to address that at 
the outset.
    Mr. Chairman, the President's budget for 2010 is before the 
Congress, and it recommends $142 billion for our Army. The Army 
budget is mostly about people and the operations and 
maintenance (O&M) to support our people. Our personnel and O&M 
accounts make up a full two-thirds of our budget, reflecting 
General Abram's axiom that people are not in the Army, people 
are the Army. Our Army, soldiers, families, and civilians are 
stretched by this long war, but our Army remains the best-led, 
best-trained, best-equipped force we have ever put in the 
field, and this committee's ongoing support has much to do with 
that, and we thank you for that.
    Mr. Chairman, the noncommissioned officer is the backbone 
of this great Army, and we have designated 2009 as the Year of 
the Noncommissioned Officer (NCO). At the front of every Army 
mission, here or overseas, you will find a noncommissioned 
officer. This year we give our noncommissioned officers special 
recognition and commit to enhancing their professional 
development to be able to meet the demands that we place on 
them.
    I would like to recognize former noncommissioned officers 
who serve on your committee: Congressman Coffman, Congressman 
Conaway, Congressman Marshall, and Congressman Reyes.
    This year we are honoring all noncommissioned officers, 
past and present, and next week we are going to honor all 
former NCOs who are Members of Congress with a parade on Fort 
Myers Whipple Field on May 19, and we hope all Members can join 
us to recognize these great soldiers who now are serving our 
country as Members of the United States Congress.
    Currently we have over 710,000 soldiers on Active Duty, 
with 243,000 deployed in 80 countries around the world. 
Additionally, we have over a quarter of a million Army 
civilians providing support. Our National Guard and Reserves 
continue to shoulder a heavy burden for our Nation. Since 9/11 
we have activated over 400,000 guardsmen and reservists in 
support of Operation Iraqi Freedom (OIF) and Operation Enduring 
Freedom (OEF), and we are all thankful that our Reserve 
component carries such a heavy load in responding to domestic 
emergencies.
    We truly are one Army. Our National Guard and Reserves are 
transitioning from a strategic reserve to an operational force, 
and I would like to discuss some of the progress we have made. 
In 2001, we spent about $1 billion on National Guard equipment. 
This year we are spending $4 billion, and we have for the last 
couple of years. The 2010 budget calls for $4 billion. As a 
result, we anticipate that the last Huey helicopter, the 
venerable workhorse dating from the Vietnam era, will leave 
Guard service by the end of this year. At that time the Guard 
will have 40 brand new light utility helicopters and nearly 800 
new Black Hawks, with more on the way. Additionally, over 8,000 
new trucks have been provided to the Guard and the famous Deuce 
and a Half soon will go the same way as the Huey.
    This 2009 hurricane season is the first since 2004 in which 
the Guard is not going to have to borrow equipment from the 
Active or the Reserve components to meet their planning needs 
for the hurricane season.
    And we have also made good progress in implementing the 
recommendations to the Commission on National Guard and 
Reserves with 14 of the 19 Army-led implementation plans 
completed.
    Mr. Chairman, as you well know, soldiers are our most 
valuable asset. The strength of our soldiers depends on the 
strength of Army families, and the support of those families is 
a top priority in this budget. From fiscal year 2007 to fiscal 
year 2009, with your support we have more than doubled funding 
for Army family programs. In this fiscal year 2010 budget, it 
includes $1.7 billion in the base budget for family programs.
    We have made many changes in how we support families. We 
have provided full-time personnel to family readiness groups to 
provide support to our volunteer spouses who carry such a heavy 
load in this time of multiple deployments. We are providing 
expanded child care for families of deployed soldiers, 
including 16 hours per child per month of free child care for 
every deployed soldier's child.
    The budget maintains Sustainment, Restoration, and 
Modernization (SRM) and continues to push ahead with 
Residential Communities Initiative (RCI), a program that you 
championed. They are at a level that will ensure that we 
provide our soldiers and families with the quality of life they 
deserve. The budget continues improvement in the care of 
support for wounded, ill and injured soldiers, and we have 
initiated programs to better diagnose and treat the invisible 
wounds of war, post-traumatic stress disorder (PTSD), and 
traumatic brain injury, and with congressional leadership we 
are investing unprecedented amounts in brain injury research.
    The fiscal year 2010 budget also will let us work towards a 
seamless transition from the Department of Defense to the 
Veterans Affairs for those wounded or injured soldiers who 
return to private life. After seven-plus years of war with an 
All-Volunteer Force, we are in uncharted waters, and our 
soldiers and families are carrying a heavy burden for our 
Nation.
    We are working to reverse the tragic rise in soldier 
suicides. It is a top priority throughout our Army, and our 
Vice Chief of Staff of the Army General Corelli is leading that 
effort. We partnered with the National Institute of Mental 
Health (NIMH) on a 5-year, $50 million study to incorporate 
their world-renowned expertise in mental health research into 
the Army's suicide prevention efforts. We are educating all 
soldiers in new and innovative ways of suicide risk 
identification and reduction. Every NCO now knows how to 
recognize the symptoms of a heat stroke and knows what to do 
about it. Our goal is for every soldier in the Army to be able 
to identify the symptoms of a potential suicide and know what 
to do about it.
    We have also launched new initiatives to attack the problem 
of sexual assault and harassment, and as we work to prevent 
sexual harassment and sexual assault, we are also working to 
become the Nation's best in the investigation and prosecution 
of sexual assault. We have used the highly qualified expert 
authority that you gave us a couple of years ago to hire 
national experts to work with our investigators and our 
prosecutors. We want to be the Nation's model for the 
prevention, investigation, and prosecution of sexual assault.
    To meet the mental health care needs of a growing force, 
the U.S. Army Medical Command (MEDCOM) has increased their 
mental health providers by about 40 percent, and we have more 
than 200 behavioral health care providers deployed to theater. 
But even with these increases, we do not have all the mental 
health support that we need, and we will continue to work with 
this committee to address that issue. Whether the problem is 
PTSD, suicidal ideation, the trauma of sexual assault, or 
dealing with any mental or emotional health issue, we are 
working hard to remove the stigma that stops some soldiers from 
seeking help for their mental health needs.
    We are improving how we do business, instituting major 
reforms in our contract acquisition processes, while continuing 
to provide the equipment our soldiers need to the more than 
250,000 soldiers scattered around the world. We thank you for 
last year you authorized five new general officers for our 
Contracting Command. That is going to make great strides for us 
in building the bench that was depleted over the last 15 years. 
And we are adding nearly 700 military and over 1,000 civilians 
for our contracting workforce.
    Being a good steward is more than just taking care of our 
money. Our goal is to lead the Department and the entire 
Federal Government in protecting the environment. Our Army's 
Energy Security Strategy reduces energy consumption and carbon 
dioxide emission by using innovative technologies. At Fort 
Carson we built a two-megawatt solar project. We have solar 
projects at 20 other locations, and currently we produce nearly 
19,000 megawatts of nonfossil-fuel energy on our installations 
around the country. We are planning for a 500-megawatt solar 
farm at Fort Irwin, bigger than any solar project in America 
today. At Fort Myer you can see some of the 4,000 electric cars 
we are in the process of acquiring. Those 4,000 cars will cut 
fuel consumption by 11.5 million gallons and reduce carbon 
dioxide emissions by over 100,000 tons per year, and we are 
investing over 54 billion in green building.
    I am pleased to report that we are on track to finish 
Defense Base Closure and Realignment (BRAC) by 2011.
    Mr. Chairman, in summary, we are a busy, stretched, and 
stressed Army, with soldiers, civilians, and Army families 
doing the extraordinary as the ordinary every single day. Our 
Nation's finest young men and women are ready to respond to 
whatever our national leaders demand around the world and here 
at home. In 2008, nearly 300,000 men and women enlisted or 
reenlisted in our Army, joined our Army or reenlisted in an 
Army at war. They are volunteer soldiers with volunteer 
families. They are proud of what they do, and we are proud of 
who they are.
    For the past 7\1/2\ years, I have watched soldiers go off 
to war, and I have watched their families stand with them, and 
watched our Congress stand alongside of them every step of the 
way. Mr. Chairman and members of this committee, thank you for 
your support of our soldiers and their families and for the 
resources and support you provide us every year.
    The Chairman. Thank you, Mr. Secretary.
    [The joint prepared statement of Secretary Geren and 
General Casey can be found in the Appendix on page 40.]
    The Chairman. Now for the uniformed leader of our Army, 
General Casey.

 STATEMENT OF GEN. GEORGE W. CASEY, JR., USA, CHIEF OF STAFF, 
                           U.S. ARMY

    General Casey. Thank you, Mr. Chairman. Before I start, 
though, I would like to pick up on the Secretary's theme about 
the Year of the Noncommissioned Officer. And I would like to 
present to you some great noncommissioned officers and the 
spouse of a fallen noncommissioned officer.
    First I would like to introduce Sergeant Joel Dulashanti. 
He is a sniper from the 82nd Airborne Division from Cincinnati, 
Ohio. He was wounded in Afghanistan, fairly severely, has lost 
his right leg. And he is the holder of a Purple Heart and an 
Army Commendation Medal with V for valor. He is here recovering 
and expects to be back in a couple of months to his unit.
    Second, Staff Sergeant Brian Tidwell. Sergeant Tidwell has 
two tours in Iraq, both with Stryker units, and he, like the 
other three NCOs you will meet now, are all helping us in our 
program executive office for soldiers. They are giving us 
direct combat experience into preparing equipment for our 
soldiers.
    Master Sergeant Jonathan Holmes. One tour in Iraq. He is an 
Air Defense Artillery noncommissioned officer, and, again, he 
is helping us there develop systems for our soldiers.
    And Master Sergeant Marc Griffith, six tours in Iraq and 
Afghanistan with the Rangers and with the Strykers, and great 
experience being applied to our soldiers. Thank you.
    And I have got one more person I would like to introduce, 
and that is Dana Lamberson. And Dana is the spouse of Sergeant 
First Class Rand Lamberson, whose bracelet I wear, who was 
killed a little over three years ago in Ramadi, Iraq. And she 
sits on our panel, my panel, to help us better understand the 
needs of surviving spouses, and she has made great 
contributions.
    So, Dana, thank you very much for coming.
    The Chairman. General, thank you for bringing these great 
Americans with you, and the very best to you. And thank you for 
your service and your sacrifice.
    General.
    General Casey. Thank you, Chairman and members of the 
committee. I would like to give you just an update of where we 
are and where we have progressed over the last year here. You 
will recall, and Congressman McHugh mentioned this in his 
opening statement, that last year I came before you and said 
that the Army was out of balance, that we were so weighed down 
by our current demands that we couldn't do the things we know 
we need to do to sustain this All-Volunteer Force for the long 
haul and to prepare to do other things. I can tell you we have 
made progress to put ourselves back in balance, but we are not, 
by any stretch of the imagination, out of the woods yet.
    I also told you that we had a plan in place, centered on 
four imperatives to achieve balance by 2011: That we had to 
sustain our soldiers and families; that we had to continue to 
prepare soldiers for success in the current conflict; that we 
had to reset them effectively to go back; and that we had to 
continue to transform for an uncertain future.
    I would like to give you just a progress report on our six 
major objectives to get ourselves back in balance. Our first 
objective was to complete the growth that was directed by the 
last Administration in February of 2007. I can report to you 
that, as of this month, all components, Active, Guard, and 
Reserve, have met the directed end-strength targets that were 
originally not going to be achieved until 2012. Now, we still 
have some work to do to put those people into units, match them 
with equipment, and train them, but that is very good news for 
us and a very positive step forward.
    Why is it a positive step? First, it allows us to begin 
coming off of stop-loss this year. And several months ago 
Secretary Gates announced that our Army Reserve will begin 
deploying units without stop-loss in August, our Guard in 
September, and the Active Force in January. This is something 
that we have been working toward as we modulize the Army and 
put it on a rotational cycle. And we--because it is finishing 
our growth, we are in a position to put ourselves in a place to 
deploy without stop-loss by 2011 as we had planned.
    The second reason it is important that we finish our growth 
is that it is one of the elements of increasing the time 
soldiers spend at home. And I have come to realize after two 
years in this job that the most important thing we can do to 
get back in balance is to increase the time that our soldiers 
spend at home, and completing the growth helps us do that.
    Dwell time, or the time spent at home, is important for 
several reasons: One, because it gives our soldiers time to 
recover from repeated combat tours. And 12 months is not 
enough, and we have to continue to expand that.
    Second, it gives them a more stable preparation time for 
their next mission. If you are only home for 12 months, you are 
going back out to the field shortly after you get back, and 
that is not good enough.
    And then lastly, it gives our soldiers time to do other 
things, to prepare for different kinds of missions besides Iraq 
and Afghanistan. And I will tell you that in 2007, based on 
what I thought the force structure would be over the next four 
years, I thought we wouldn't get quite to one year out, two 
years back, right away. If we execute the President's Iraq 
drawdown plan, and I have no reason to doubt that we will, we 
will actually do better and actually get to a one-to-two or 
even better ratio. We have to do that. It is very important to 
the long-term health of the force that we meet that goal in 
2011.
    The third element of balance is to continue our move away 
from Cold War formations to formations that are far more 
relevant in the 21st century. In 2004, we began what we said 
was the modular conversion of our Army. We are 85 percent done, 
and that is 85 percent of the way through converting all 300 
brigades of the Army to modular designs that are far more 
relevant today.
    The other element of this is we are about two-thirds of our 
way through rebalancing the force, moving soldiers out of the 
skills that we needed for the Cold War into skills we need 
today. Some examples. Since 2004 we have actually stood down 
200 tank companies, artillery batteries, and air defense 
batteries, and we have stood up a corresponding number of 
military police units, engineer units, Special Forces companies 
and civil affairs companies, those skills that you hear that we 
need all the time. That is a big step for us. Together, this 
represents the largest organizational transformation of the 
Army since World War II, and we have done it while we are 
deploying 150,000 soldiers over and back to Iraq and 
Afghanistan every year.
    Fourth, we are moving to put the whole Army on a rotational 
cycle much like the Navy and Marine Corps have been on for many 
years. And we believe that is important because we need to be 
able to sustain the flow of trained and ready forces to 
combatant commanders, and we need to do it in a manner that 
provides our soldiers and families a predictable deployment 
tempo, and so we are moving out on our way to do that.
    Fifth, as Secretary Geren mentioned, we are halfway through 
our rebasing effort, and the combination of BRAC, global 
reposturing, building facilities for our units that we are 
growing is resulting in new basing arrangements for 380,000 
soldiers, civilians, and families across the Army. And we are 
about halfway through that, and we will finish by 2011. One of 
the great benefits of this is the improvement in the quality of 
facilities for our soldiers and families.
    And sixth, and our final objective here, Mr. Chairman, is 
to increase our strategic flexibility. And the longer our 
soldiers spend at home, the more time they have time to prepare 
for other things. And what I have told them is that if you are 
home for 18 months or less, stay focused on your regular 
warfare mission. If you are home for 18 months or more, start 
to rekindle some of the skills that have atrophied while you 
have been in Iraq and Afghanistan. And so as we build time at 
home, we will also build resiliency to do other things.
    So that is where we are. We have made good progress, but we 
are not out of the woods yet, and the next 12 to 18 months, I 
think, will be the most difficult time. And the reason for that 
is we will actually increase in the number of forces we have 
deployed slightly before the drawdown begins, but when we get 
through the next 12 to 18 months, we will be in a much better 
position.
    Now, if I could briefly just make a few comments about how 
the budget helps us get ourselves back in balance and sustain, 
prepare, reset, and transform. First of all, sustaining our 
soldiers and families, number one priority. And the budget 
contains housing, barracks, child care centers, youth care 
centers, warrior transition units, and operational facilities, 
all critical to improving the quality of life of our soldiers. 
We have put more than $1.7 billion in the budget for soldiers 
and families. That is about double where we were two years ago, 
and we are absolutely committed to delivering on our Soldier 
Family Action Plan.
    I will tell you, Mr. Chairman, I have just been--over the 
last seven weeks visited five of our stateside installations 
here and been to Djibouti and Afghanistan. And it continues to 
be clear to me that our families are indeed the most stretched 
part of the force, and that is why we are paying such close 
attention to their support.
    On the prepare side, Mr. Chairman, probably the most 
significant thing that has happened over the last year is the 
infusion of about 10,000 mine resistant ambush protected 
vehicles (MRAPs) into the theater. And I talk to soldiers in 
Afghanistan, and sometime they gripe a little bit about being 
hard to drive off the road. But anybody that has been in an 
MRAP and had an IED blow up underneath them and lived is a 
convert, and so they are already making a great difference.
    Reset, number three. There is $11 billion in this budget to 
reset the force, and that is absolutely critical to our ability 
to keep preparing soldiers properly to go back.
    Lastly, on transform, we are in an era of what I call 
persistent conflict, and I believe that we need land forces 
that can do four things in this era. One is we have to prevail 
in a protracted global counterinsurgency campaign. Two, we have 
to be able to engage to help others build capacity to deny 
their countries to terrorists. Three, we have to provide 
support to civil authorities at home and abroad. And fourth, we 
have to deter and defeat hybrid threats and hostile state 
actors, and we are building an Army to do just that. It is an 
Army with a versatile mix of tailorable organizations organized 
on a rotational cycle so that we can provide a sustained flow 
of trained and ready forces to combatant commanders and hedge 
against uncertainties, and then we can do this at a tempo that 
our soldiers and families can sustain.
    I will close, Mr. Chairman, by talking about one more 
noncommissioned officer, and that is Staff Sergeant Christopher 
Waiters, and he received the Distinguished Service Cross, our 
Nation's second highest award, for valor in April for actions 
in Baghdad in April 2007. Sergeant Waiters was in a Stryker 
following a Bradley Fighting Vehicle on a patrol. The Bradley 
hit an improvised explosive device, blew up, burst into flames. 
He realized soldiers in there were trapped and couldn't get 
out. He left his Stryker, fought his way over 100 yards to the 
burning Bradley, dragged two soldiers out back to his Stryker, 
treated them and realized there was still another soldier 
inside. He went back across the open area, back into the 
vehicle as the ammunition was exploding, realized the soldier 
inside was dead, went back to his Stryker, got a body bag, went 
back and recovered the soldier, never leaving a fallen comrade.
    So our noncommissioned officers are the glue that is 
holding this force together at a very important time.
    So, Mr. Chairman, thank you very much, and I look forward 
to your questions.
    [The joint prepared statement of General Casey and 
Secretary Geren can be found in the Appendix on page 40.]
    The Chairman. General, thank you for your excellent 
statement.
    General, Bill Caldwell was kind enough to give me briefings 
on the two new manuals regarding the wide scope of potential 
warfare. You and I have discussed that before. And I question, 
and I ask you to explain to our committee how you can train 
soldiers to do the entire spectrum of warfare on the one hand, 
conventional, such as we have had in Korea or elsewhere, or 
during the Second World War and most places, and on the other 
hand, insurgency or terrorism type of warfare on the other 
hand. I think we would be--we would appreciate your explaining.
    General Casey. Thank you very much. And as you suggest, 
this is not an easy question, and it is one that we have been 
wrestling with, frankly, for the last two years as we adopted a 
doctrine of full-spectrum operations.
    As we have thought about this, frankly, I was originally in 
a position where I was thinking conventional war or irregular 
war, two different things, and the more we thought about this, 
that is less and less useful. What we are really talking about 
is war in the 21st century. And as we view the character of 
conflict in the 21st century, we believe that our doctrine of 
full-spectrum operations where we say Army formations will 
simultaneously apply offense, defense, and stability operations 
to seize and retain the initiatives and achieve decisive 
results, we believe that that is a very relevant operational 
concept not only to fight the wars that we will be fighting, 
but also to use as a vehicle to train our units and to develop 
our leaders.
    It is not an attempt to train everyone to be good at 
everything all the time, as you suggest. That is impossible. 
And, for example, on leader development, what we say is, I 
don't want someone who is good at everything; I want someone 
who is very good at their core competency, and that is broad 
enough and educated enough to deal with a wide range of 
challenges that may be presented to them.
    And as we look to develop our leaders, we are looking to 
add what we are calling broadening windows onto their officer 
development time lines, probably late captain and late major. 
And we put a range of activities in those windows that they 
could choose from. And so we want broad leaders as well as 
tactically competent leaders.
    So when we publish a new doctrine, as we did in February of 
2008, we fully expect that it will take us several years to 
ingrain that doctrine in the force. And one of the greatest 
challenges that we have is exactly the question that you ask. 
But we have given it a lot of thought, and we will continue to 
evolve in our ability to do that. But it is--we believe it is 
the right doctrine, and we believe it is doable.
    The Chairman. I have a question that has bothered me for 
quite some time as to whether our war colleges are producing 
first-class strategic thinkers and, in addition on that, 
identifying them, putting them in the right positions and 
keeping them. I had an interesting discussion with General 
Peter Pace not long before he retired, and I asked him, how 
many graduates--and I used the National War College--how many 
graduates of the National War College could sit down and have a 
good discussion with the late George C. Marshall? He said three 
or four. That is not bad. That is good if you are producing 
that.
    Everybody that goes to the National War College, and I am 
sure that is true with your war college as well, understands 
strategy. They know it when they see it. They know it is good 
or not. But those that can actually lead the charge in the 
thinking is going to be a limited number. How do you identify 
them? How do you put them in the right position? And how do you 
keep them, General?
    General Casey. Mr. Chairman, that is another great 
question. It is something that, as the Director of Strategy and 
Policy on the Joint Staff several years ago, I came face to 
face with. And I am inclined to agree with your assessment that 
we, as a country, have not done a good job of identifying, 
training, and capturing not only good strategic thinkers, but 
strategic thinkers who can apply the art of strategy to the 
complex strategic and operational problems that we are dealing 
with today like Iraq and Afghanistan.
    We have a course out at Leavenworth called the School of 
Advanced Military Studies. The focus of that course in the past 
has been largely at the operational level of war. We have 
augmented that course recently to include a block on strategy. 
And the thought was to try to identify at the major rank 
officers who may have the capabilities as they go on to become 
the strategic thinkers and the strategists that you are talking 
about. It is going to take us several years, I think, for that 
program to mature, but it is a step in the right direction. And 
I very much agree with your assessment here that we have more 
to do here.
    The Chairman. You have to have it at the right place. And I 
have seen instances where, the different services, that that 
person has been overlooked and not used to their potential.
    Mr. McHugh.
    Mr. McHugh. Thank you very much, Mr. Chairman.
    Again, gentlemen, welcome.
    Chief, when you made your opening comments, you observed 
that the $11 billion provided in this budget for reset is 
critical. I think we can all agree with that. It is absolutely 
essential. But going back to my opening statement, as I noted, 
we traditionally in those accounts in supplementals had about 
$20 billion on end strength and reset. And the OCO account, now 
the Overseas Contingency Operation account, which is the budget 
line for these activities in the base budget, is for this 
document about $11 billion. At least on its face that seems to 
be quite a change. Why is that not cause for concern?
    General Casey. I think the larger part of the change, 
Congressman, is because we are resetting less units than we 
were before. Now, as we get--we just got the details of the 
drawdown plan from General Odierno Monday. And so our staffs 
now are starting to work that, and we may have to come back at 
a later time as we look at the timing and the scope of 
equipment coming out of Iraq and ask for some additional funds. 
But the money in the budget for right now allows us to reset 
the units that will be coming out of Iraq and Afghanistan 
during the period covered by the budget.
    Mr. McHugh. So, based on conditions then, you feel 
currently the $11 billion is an adequate figure, even at a $9 
billion level less, but you reserve the prerogative, if you 
will, of reevaluating that and trying to plus that account up 
at some future point.
    General Casey. I do. Once again, once we get an idea of the 
scope. I mean, there is a lot of stuff that is going to come 
out of Iraq when we start moving that out, but I don't have a 
good enough feel for it to put a number on it.
    I must say the other big change in the OCO budget was some 
new rules about procurement and about buying material that 
wasn't directly related to the war effort. And we had used that 
in the past, and so that is another reason why the number went 
down. But, again, $11 billion gives me the money that I need to 
reset the units coming out of Afghanistan during this period.
    Mr. McHugh. On that point, those excluded items, I mean, 
they still require monies. Where do we get that from?
    General Casey. Well, I mean, over the long haul, 
Congressman, we are going to have to make judgments about, 
well, we are going to fix the things that are coming out, but 
we have to make--prioritize decisions about where we can invest 
all of our money.
    Mr. McHugh. I wish you didn't have to make those choices, 
but I understand how those kind of things play out in the real 
world.
    Similarly, on procurement, I mentioned General Schoomaker's 
comments about a post-9/11 environment, and the figure he 
quoted was $56 billion procurement shortfall. And the recent 
history of those accounts has been, as I mentioned in 2008, $61 
billion; in 2009, $37 (billion); yet in 2010, it is $30 
billion. A lot of us were here, through what seemed to be a 
pretty good idea at the time, because of the so-called peace 
dividend, to go on what we now call the procurement holiday. 
And, of course, those brave folks who sit behind you had to 
struggle with those judgments that we were all a part of. How 
does this trend line, particularly the procurement account in 
2010 and $30 billion, assure us that doesn't represent the 
start of another procurement holiday?
    General Casey. It certainly is too early to tell. And I 
don't feel that it is. We have benefited substantially from a 
plus-up in our investment accounts over the last several years, 
and that has substantially helped us fill some of those holes. 
We haven't filled all of them, but we have filled more than I 
would have thought possible, and that is a very good thing.
    We, I think, owe this committee and our Department of 
Defense an affordable modernization strategy that allows us to 
build a force that continues to be capable into the future, and 
an investment strategy is a big part of that. And we are 
actively doing that now, and we will sharpen it over the next 
year.
    Mr. McHugh. I take it that, based on your last few 
comments, that if I were to ask you to provide a figure, as 
General Schoomaker said, how much are those unfilled holes 
going to cost, do you have a ballpark figure, or are you still 
on the calculation tables for that?
    General Casey. I have periodically gone back and said, 
okay, show me what we received, and help me fill the holes, and 
I don't have that today. I can get that for you though.
    [The information referred to was not available at the time 
of printing.]
    Mr. McHugh. I would appreciate that.
    Mr. McHugh. Mr. Chairman, I recognize that we have got some 
votes coming up. I obviously have other questions, but we have 
other valuable Members here who want to ask, so I will yield 
back at this time.
    Mr. Ortiz. [Presiding.] Thank you, first of all, for your 
service, and good to see both of you.
    I had the honor and privilege of serving with my good 
friend Pete Geren when he was a Member of the congressional 
Texas delegation. And thank you both for your service and your 
dedication and keeping our country strong and free, and I hope 
we can keep it like this.
    But one of the things that I am concerned with--and I know 
that we are about to increase our presence in Afghanistan, and, 
of course, we will have soldiers in Iraq-- is the medical 
services that the soldiers get. I just read an article the last 
four or five days about the impact on the health services. And 
that story came about because it talked about the contractors 
who are there. I think we have 3-, 400,000 contractors, and 
they are utilizing the health facilities that are there for our 
soldiers, and the impact that is having. And not only that, the 
article mentioned that the contractors are not paying their 
bill.
    Now, we have our soldiers there, and this is one of the 
things that may be for another hearing. We are going to find 
out how the contractors get this contract and whether they are 
supposed to hire doctors and nurses to treat their workers.
    Will this increase of the 17,000 to 20,000 soldiers also 
put a huge load on your back when they have to treat both our 
soldiers and the contractors?
    Secretary Geren. Your question of whether the contractors 
are supposed to reimburse for their medical care, and they are, 
and we are working through that issue. And whether it is food 
services or medical services, they are supposed to reimburse. 
And we are--as we ramp up in Afghanistan, we are ramping up the 
medical services.
    One of the issues that we spent a great deal of time on 
over the last four months is working on the medical evacuation 
(Medevac) that will be available for the soldiers in 
Afghanistan. The terrain and the altitudes pose some special 
challenges there that we don't have as much of in Iraq. But 
this build-up, the medical plan to support the build-up, is 
well developed, and we are resourcing it. We are moving more 
helicopters into Afghanistan to be able to enhance the Medevac 
services, and we fully expect that we will have medical care 
there that will meet the needs of the soldiers not only for 
physical issues, but mental health as well.
    And one of the areas that we have emphasized a great deal 
over the last couple of years is moving mental health care 
forward to the soldiers, both having the mental health care at 
the division level, at the brigade level, in the combat support 
hospitals. And we even have mobile teams that will go out and 
provide mental health care. If there is an IED explosion in 
some area, the mental health professionals go to that site and 
start working with those soldiers immediately. We have learned 
a lot about what this environment requires in terms of medical 
care, and I feel good about the plan that we have for the 
Afghanistan build-up.
    General Casey. I have nothing to add to that.
    Mr. Ortiz. Okay. One of the things that I have asked before 
this came about has been training. Are we providing better 
psychological training for our troops before they are deployed, 
and even while they are there? This has been a great concern to 
me and members of my Readiness Subcommittee. Are we doing 
better as far as providing this type of training for them?
    Secretary Geren. We are. And the Chief and I, I think, both 
would like to speak to that issue on many different levels. And 
we are also continuing to look for ways to improve the 
training, the resiliency training, different ways to judge the 
mental health preparedness for a soldier. And we look at all 
these different factors as far as how they are handling the 
stress of deployments.
    But we have some very specific training. We have training, 
a chain teach program for post-traumatic stress for our 
soldiers. Literally every soldier in the Army, we are 
attempting to give them a modular training on post-traumatic 
stress disorder, how to spot it in themselves, and what to do 
about it. Same with suicide prevention. And we have got a 
program under way right now, we are in the middle of a chain 
teach program to literally teach every single soldier in the 
Army about how to identify in himself and his buddies the 
possibility of a suicidal thoughts, ideation, and what to do 
about it. General Casey has been working on a project having to 
do with developing the total soldier fitness and resiliency, a 
program we are going to emphasize over the course of this 
summer. And I would like--the Chief might speak about that 
resiliency training and the program that General Cornum has 
developed.
    General Casey. If I could, as we look at the challenges, 
the mental health challenges that we are facing, you know, that 
is one of the things that worries me most, when people ask me 
what keeps me up at night. Last year we had 13,000 new cases of 
post-traumatic stress identified in the Army. That is about 
double what it was two years before. Now, that is a high 
number, but the good news is more and more people are feeling 
comfortable enough to come forward to get the treatment, which 
is the important thing.
    But I was worried that we were being too reactive, that we 
were getting there after the fact. And so we, over the last 
year, have been building what we call a comprehensive soldier 
fitness program, and the intent of this program is to raise 
mental fitness to the level that we give to physical fitness. 
And the idea is to build resiliency in all soldiers so that we 
can enhance their performance.
    And a lot of people think that everyone that goes to combat 
gets post-traumatic stress, and that is just not true. Everyone 
that goes to combat gets stressed, no doubt about it, but the 
vast majority have growth experiences because they are 
challenged by something that is very, very difficult, and they 
succeed.
    And so the idea is to give resilience skills to more and 
more of the force so that more and more people have growth 
experience and are able to expand and enhance their 
performance. And so I would expect in July we will start with 
this program. It will include master resilience trainers, just 
like we have master fitness trainers. And our first class of 
noncommissioned officers is scheduled to go to the University 
of Pennsylvania next week to begin training. We will ultimately 
build our own school. There will be a self-diagnostic test that 
soldiers will take, and they will be given personal feedback on 
where they stand on a range of things, and then they can 
connect through the computer to modules that will give them 
self-help means to help them out. And then there will be 
standard modules to be given before, during and after 
deployment and in every one of our developmental schools for 
our officers, noncommissioned officers. But I believe this is a 
proactive way to get at this and help us build resilience.
    Secretary Geren. Just something real quickly, though. I 
don't want it to sound as if we think we have solved the 
problem. The stress of combat, the stress of multiple 
deployments takes a heavy toll on soldiers, takes a heavy toll 
on families, and we have this partnership with the National 
Institute of Mental Health, a five-year program. We recognize 
that there is knowledge, experience, and expertise outside of 
the Army that we could take advantage of, and that is one of 
the initiatives that we feel will bear fruit for us going 
forward.
    So we are working very hard in this area. High priority for 
everybody in the Army. But I don't want it to sound as if we 
think we have got all the answers, because we don't. We are 
learning. We are in uncharted waters. We have never been at 
seven-plus years of war with an All-Volunteer Force. We have 
never had soldiers do this kind of deployments over and over 
and over. So we are living and learning, but I can assure you 
it is a priority for everybody in our Army, and we are working, 
both inside the Army and outside the Army, to do the best we 
can in this area.
    Mr. Ortiz. Thank you.
    The Chair recognizes Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    Thank you, gentlemen for your service.
    I am going to ask two brief sets of questions. The first 
relates to body armor. As you know, our military people 
frequently are in a quandary. They know they need the 
protection from the body armor, but it is so heavy and 
cumbersome that it restricts mobility, and so they decide for 
some missions that the increased mobility is more important 
than the protection.
    I wonder if we have had an aggressive enough program to 
reduce the weight of body armor. For instance, for MRAPs and 
for intelligence, surveillance, and reconnaissance (ISR) we 
have set up task forces to look intensively and broadly at what 
might be done to advance some technology in those areas. I 
don't--I am not sure that the extent of the Army's R&D efforts 
to reduce the weight of body armor is large enough. And I 
wonder, are there any plans to include a program element in the 
base budget for lightening of body armor and equipment since it 
is so important to lighten those two?
    Mr. Bartlett. The second set of questions deals with the 
joint cargo aircraft (JCA). As you know, this was originally an 
Army vision. The Air Force was a very reluctant partner to 
this. Some might say that they were dragged kicking and 
screaming into this relationship.
    The Army originally said that they needed 78 of these. In 
the last couple of weeks, we have had witnesses from both the 
Army and from the Guard that testified that there was no study 
that indicated that we needed less than 78 of these. And, by 
the way, that 78 did not include the aircraft that the Air 
Force might need. That was to be factored in later.
    Now, we understand that the total number is going to be 38, 
that the program has moved totally over to the Air Force, and I 
am kind of mystified by that and wonder if you can comment on 
it.
    General, you are quoted this week as telling reporters that 
you are comfortable with the transfer of this program to the 
Air Force because they told you they were going to support you 
down to the last tactical mile. Yet, for several years, the 
Army has steadfastly defended a program requirement to support 
tactical delivery supplies and the Guard's homeland defense 
missions.
    Now, if you are convinced that the Air Force is going to 
meet your needs--and I don't see how they can with 38 planes 
when the Army thought and we had testimony in the last couple 
of weeks that the 78 was still the need--how are we going the 
support the needs of the Guard back home here?
    You also were quoted as saying that we might need more than 
38. I agree we need more than 38 planes, and the question is, 
how are you going to get those and where was the money coming 
from?
    Secretary Geren. I will take your body armor question.
    Mr. Bartlett. I would rather have you report on the body 
armor thing, a written response, and if time remains both 
certainly, but how about first the JCA aircraft and then the 
armor?
    Secretary Geren. Certainly.
    General Casey. To me, I think there are two issues here for 
me. First of all is who should have the muscle--and, 
Congressman, my core competency in the United States Army is 
not flying cargo aircraft. We can do it. We do it. But, as I 
looked at this, I need the service. We need to be able to 
resupply our forward brigades in places that can't be accessed 
by a C-130. And so I have talked to the last two Chiefs of 
Staff of the Air Force and said, look, I need the capability 
here. If you all can provide that to me, then I am comfortable 
with you taking this program over. Norty Schwartz agreed to 
that.
    Now, we are still working out exactly how that transfer 
will take place and have the requirement to get back to the 
Department at the end of this month to say how we are going to 
do that. And the issues you raised with the Guard, whether it 
is in the Army Guard or the Air Guard, we have got to work 
through those modalities.
    Mr. Bartlett. You don't believe that the Air Force can get 
twice the effectiveness out of these aircraft so if the Army 
needed 38, the Air Force--only needed 78, the Air Force only 
needs 38 to meet your needs?
    General Casey. That is the second element. The second 
element is the number of aircraft, and we put a requirement on 
the table for 78 aircraft, I believe it was.
    Mr. Bartlett. Seventy-eight.
    General Casey. Okay, 78 aircraft, and I believe that 
requirement is still valid.
    Now, what General Schwartz wants to do to merge those 
aircraft in with this C-130 fleet and whether he ultimately 
needs the full number to support us in the way that we need to 
be supported, I think that remains to be seen and discussed.
    Mr. Bartlett. General, I have here a little diagram from a 
report done by the Institute of Defense Analyses (IDA). I think 
in our 2008 defense bill we asked for that. They had on the 
abscissa the cost and on the ordinate they had the 
effectiveness. Obviously, if you put a little four quadrants 
there you would like to be in the upper left quadrant where it 
costs less and is more effective. The only plane they had in 
the left quadrant out of the C-5, the C-17, and the C-130 was 
the JCA.
    General Casey. I am happy for that, and it has been a while 
since I have dealt with ordinances and abscissas.
    Mr. Bartlett. The thing that was the most effective, we are 
going to buy less than half of what we need. I am having 
troubling understanding that.
    General Casey. I understand.
    Mr. Ortiz. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman, and, Secretary Geren, 
General Casey, thank you very much for your service to our 
country.
    For those of you who have not been around here as long as I 
have, I want to tell you, Secretary Geren, you would have been 
sitting right here, and that he left Congress about 15 years 
ago so he could spend more time with his family, only to come 
back and spend even more time working, serving our Nation as 
the Secretary of the Army. And so I very much appreciate your 
service to our Nation. I very much on behalf of every family of 
the troops appreciate the great job you did in turning things 
around at Walter Reed.
    And, General Casey, thank you for your service. Thank you 
for what you said about the MRAPs. I am in violent agreement 
with you. I think we are saving kids' lives every day with 
them.
    And towards that end, you know, for years I have been 
hearing the Army tell me that they train as they fight and they 
fight as they train. We still have a significant shortfall of 
MRAPs at the training installations. I very much appreciate 
General Chiarelli on a very frequent basis letting me know that 
he is increasing the number, and I appreciate the updates. I 
still don't think it is enough. I don't think that we honestly 
say we are training as we fight with the few that we have.
    I appreciate that you are going in the right direction. I 
want to encourage you to get some more for your training 
installations as we now have the industrial capacity.
    And I am going to yield my remaining time to a member of 
the Ranger Hall of Fame, Mr. Marshall.
    Mr. Marshall. Well, let me just start by saying that a lot 
of people make reference to, you know, advocacy for the MRAP in 
various quarters, but if my history is correct, if my 
recollection is correct, here in the Armed Services Committee 
the advocate, the major advocate was Mr. Taylor, and he 
deserves an awful lot of thanks from an awful lot of people. We 
would not be where we are where the MRAP is concerned without 
Mr. Taylor pushing the hell out of it.
    General Casey, you and I have already talked a little bit 
about JCA. I will just second what my good friend has just said 
on that subject, and I just hope we continue to think about 
this thing and that the Institute for Defense Analyses' study, 
done at our request, under your supervision, is taken into 
account as we move forward thinking about mix where error is 
concerned and that we not have, sir, a repeat of the sort of 
back and forth that we experienced where the Caribou was 
concerned in the Vietnam era, and I just encourage you to sort 
of look at that history.
    Pete, you have been a great Secretary. You have been so 
responsive, and you care so much about our troops.
    I mentioned to you Fort Stewart and the reliance that Fort 
Stewart and the local community has already incurred with 
regard--in anticipation of another BCT, and I told you that I 
was going to get to you a figure of the reliance that this 
community has--well, the costs that the community has incurred. 
And the figure that I have--and I can't give you the piece of 
paper at this point because I want to vet it a little bit more, 
but it is $441 million in public and private dollars put into 
getting ready for this BCT.
    It seems to me for a community that has been that great, 
for a fort that has been that great over many, many years in 
support of the military, we have got to figure something out 
here so that, you know, so they don't get harmed to that extent 
in the course of rethinking how we are going to do our BCTs. 
Some compensation needs to occur or we just need to rethink 
this idea or we need to station some folks there so that that 
reliance just doesn't go to waste.
    Secretary Geren. On that point--and thank you for getting 
me that number--Fort Stewart community, we have embraced Fort 
Stewart as long as there has been an installation there. The 
Army encouraged the community to step out, to build the 
schools, build the roads, build the housing; and as we have 
seen with the other two communities that are impacted by the 
decision, we have seen folks really step up and make the 
investments to accommodate these soldiers. Those are factors we 
have got to take into consideration as we move forward. We will 
continue to go to communities and ask them to do things for 
soldiers and communities need to be able to--it is a two-way 
street.
    Mr. Marshall. It is a partnership.
    Secretary Geren. It certainly is a partnership, and I 
appreciate the opportunity we have had to discuss it. And it 
certainly is a factor that, as we move forward and work through 
this very recent decision that has been made, we have got take 
that into consideration.
    Mr. Marshall. Well, I appreciate that response.
    In this partnership, it is clear it is a two-way street, as 
you say; and we have some obligations, frankly, to those 
communities that have relied extensively on our promise and our 
request that they do so.
    Thank you both for your service and the service of those 
that you lead.
    The Chairman. [Presiding.] We will try to get one more 
member's questioning in before we break for the vote. As I 
understand it, we have three votes, but they will be the last 
of the day, and we hope that our members will return.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service.
    I remember, Secretary Geren, it was 2002 I was at the basic 
school at Quantico, and we did our 20-mile hump that we had to 
do. We started at about one in the morning because it was 
summer, and we wanted to get it done while it was cool out. And 
Secretary Geren and my father, the former chairman of the Armed 
Services Committee here, walked with us for three miles. By 
then, it was like 1:30 in the morning, and they left because 
they said that they had to catch a flight, and the traffic was 
really bad. So they were able to get out of the other 17 miles. 
But great to see you here.
    I have got a question. It is kind of a touchy one because 
there is no right answer to it, I don't think.
    First, General Casey, have you signed off on any Medal of 
Honor citations since, let's say, 2001?
    General Casey. I have. I am trying to--I know I signed 
off----
    Mr. Hunter. Let me rephrase, for living recipients.
    General Casey. For living recipients, no.
    Mr. Hunter. Okay.
    General Casey. I don't believe I have, no.
    Mr. Hunter. What I don't understand is either our soldiers 
and marines and sailors--and this goes for every service--but 
we are either not as brave as we used to be, there is no more 
acts of courage and valor, which I don't think is true because 
I have compared side by side citations from World War II, 
Korea, Vietnam, to the citations we have now for lesser awards, 
or the criteria for the Medal of Honor has changed to you have 
to die.
    And that story that you told me about the soldier running 
back and forth, you compare that to a Korean War, probably 
Medal of Honor winner, who knows. But there has not been a 
living recipient that earned a Medal of Honor since Vietnam. 
The last person to receive it earned it in like 1971.
    So the question is why? Are we not as brave? Are we not as 
courageous? Are there no more acts of valor? Have the criteria 
changed? Or is it no longer that battlefield commander making 
the recommendation to get that Medal of Honor approved? Is it 
brass, which I think--not necessarily brass but possibly 
civilians in the DOD that are shooting this thing down at 
higher levels than even those people sitting here today in this 
room?
    General Casey. I can tell you I can come up at this from 
two perspectives. One is my time in Iraq, and the other is my 
time here as chief seeing these awards come across my desk.
    The criteria hasn't changed. It has been the criteria--you 
know, the criteria for the award has been in our regulations 
and policies for years and hasn't changed. And I have seen 
neither in Iraq nor here any effort by anyone to consciously 
downgrade and downplay the valor of our soldiers when it comes 
to awards.
    What I can tell you is what I have seen is every 
organization has a process where they bring these awards before 
a board of officers and noncommissioned officers (NCOs), and 
they review them and discuss them to see if they meet the 
criteria. And I can tell you I have seen some hugely heroic 
acts and read about some hugely heroic acts, and in my own mind 
they haven't risen to the level of Medal of Honor.
    And sometimes, as you suggest, the line between a 
Distinguished Service Cross and a Medal of Honor is quite thin, 
but I can tell you there is absolutely no effort to try to 
press down the criteria for Medals of Honor.
    Mr. Hunter. So the answer really is that there has not been 
an act of valor that you have seen in the Army that warrants 
the Medal of Honor in the last eight years of combat?
    General Casey. For a living person.
    Mr. Hunter. Correct.
    General Casey. A living person. I think I would go back to 
your opening comment. There is no right answer to this 
question.
    Mr. Hunter. Well, the right answer is that the criteria has 
probably changed a little bit, meaning you have to be dead. 
That is what I would say.
    General Casey. I don't think that is the case. I have never 
heard that stated. I have never heard that stated.
    Mr. Hunter. There have been Medal of Honor recommendations 
that have gone all the way up the chain and have been stopped 
back here in D.C. When everybody on the ground in Iraq and 
Afghanistan concurs, the people that actually saw the combat 
concur, that that is a Medal of Honor awardee and that the 
soldier, sailor, marine, or airman should get the Medal of 
Honor. So it is not just the Army. It is every service. Because 
not a single one from any service has been given out since the 
war started.
    I would just ask you to think on it. We are trying to track 
down where the Medals of Honor are being hijacked at. Because 
they are being stopped, in my opinion. But thank you. If you 
have anything else you would like to say----
    General Casey. I think I am sitting here reflecting as you 
are talking about awards that have come across my desk in the 
last two years where the recommendation to downgrade has been 
made here in Washington. And maybe one or two--most of the ones 
I see that are downgraded are downgraded out of theater. But 
let me get back to you because I would like to find out the 
answer to that myself.
    Mr. Hunter. Let me, if I may, Mr. Chairman, are there any 
being processed right now?
    General Casey. There may be. There may be. There may not. I 
will check that as well.
    Mr. Hunter. Thank you, General. Thank you, Secretary. Thank 
you, Mr. Chairman.
    The Chairman. I thank the gentleman. We have three votes. 
We shall return. I urge our members to come back to continue.
    [Recess.]
    The Chairman. Gentleman from North Carolina, Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman. And General, 
Secretary, we certainly welcome y'all being here today and all 
the special guests you have with you. Thank you so much.
    I claim Fort Bragg in my part of North Carolina. We come 
right to the Fort with our district, but I claim Fort Bragg.
    One thing I want to just mention to you today--and I am 
going to do this very quickly, and I am going to be following 
up on this--I told Chairman Skelton about earlier today. Some 
people came to my office yesterday--and part of the Army has 
incorporated this idea already. It is a box that can hold blood 
at the proper temperature for 72 hours without refrigeration, 
between 2 degrees and 8 degrees centigrade. It allows blood to 
be taken to the combat area where we could potentially keep 
people from bleeding out. Instead of having to carry the 
wounded soldiers back to where the blood would be, we can carry 
the blood to the soldiers.
    I don't know if y'all are aware of this or not. It was just 
brought to my attention. I am going to be following up with 
this, but it is something that could save lives that we are 
excited to be pursuing it.
    Secretary Geren. I am not familiar with it, but I would 
certainly like to learn more about it.
    Mr. Kissell. We will follow up, and it is just an exciting 
development.
    The question I have is, the Wounded Warrior Program is such 
a delicate balance between having individuals who are at the 
same time soldiers but also patients. And I spent time at Fort 
Bragg talking with the people, talking with the patients. I 
know the intent is wonderful, but sometimes we have these 
patient soldiers fall between the cracks. I am just wondering 
what y'all's thoughts are on the Wounded Warrior Program, maybe 
what--the weaknesses you see, the strengths and maybe how we 
can improve it as we go forward.
    Secretary Geren. I think we both can speak to that.
    I was recently at Bragg and met with the Warrior Transition 
Unit soldiers. As you know, we started that approach to meeting 
the needs of soldiers in outpatient care just about two years 
ago, and we have come a long way in developing a system that is 
responsive to the needs of the soldiers. It is a great step 
forward as far as meeting the needs of the soldiers, letting 
them focus on healing.
    We hope--and our goal is to work with them and give them an 
opportunity to return to service in the military. For those 
that choose to go on to private life, our goal also is to help 
them make that transition successfully, work with the 
Department of Veterans Affairs (VA), help them develop the 
skills that they would need to be successful on the outside.
    We have had some situations--in fact, we had one at Fort 
Bragg that I have spent a quite a bit of time working with 
Medical Command and with the head of the Warrior Transition 
Unit. It is a delicate balance. You have got soldiers that 
have--the cadre there are, most cases, they are soldiers that 
come from--who have served in combat. They are great leaders, 
and we are selective on who we pick to be in that cadre. They 
get special pay to be in that cadre. But it is a new skill for 
them, to lead--to be a noncommissioned officer and lead these 
soldiers who are patients and they are also soldiers and 
striking that right balance to help that soldier heal and 
progress as a soldier. It is a balancing act.
    I think, though, it has been a very good approach. By and 
large, it has worked very well. We have had a very high 
percentage of soldiers who have returned to active duty or 
returned to the Guard or Reserve, but I go around and I know 
General Casey does and other members of our leadership. We meet 
with these warriors in transition. We ask all the cadre to 
leave. We ask all the leadership to leave. We want to hear from 
them without anybody present what can we do to make this 
better. I always tell them you have got two jobs: one is to 
heal; the other is to help us make the Warrior Transition Unit 
approach a success because it is still a work in progress. And 
the input that we have gotten from these soldiers has helped us 
continue to tweak it and make it better.
    But, by and large, it has been a great success. My hat is 
off to General Schoomaker and now General Cheek, before him 
General Tucker. They have done a great job with building it, 
but we continue to work to make it work better for the 
soldiers. But I appreciate your interest in that issue.
    General Casey. If I can just add--you asked for things to 
make it better. We are still not where we need to be on the 
medical evaluation board process and the bureaucracy of the 
process. We have got more work to do there, automating it, 
streamlining it, but that is the area where we need to focus 
some attention.
    Mr. Kissell. Thank you, sir.
    Secretary Geren. Very briefly on that point, Dr. Gates and 
General Shinseki are working--they have a partnership at that 
level across the whole Department of Defense, working with the 
Department of Veterans Affairs, and their commitment is to make 
that process better. We in the Army are working it, but it is 
something that personally Dr. Gates and General Shinseki are 
working.
    The Chairman. I thank the gentleman.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    Secretary Geren, a Colorado-specific question. I just 
wonder if you could talk about for a minute whether or not 
there is a valid requirement to expand the Pinon Canyon 
maneuver site in southeastern Colorado.
    Secretary Geren. Congressman, thank you for your support of 
that initiative.
    Expanding the Pinon Canyon training range is a priority for 
us. We have--there is some debate over what the exact right 
number of acres is that we need to meet our goals. But we want 
to--we cherish the relationship we have had with the State of 
Colorado. We want to be a good neighbor. Colorado has certainly 
been good neighbors to us. Fort Carson is such an important 
part of our military, and we have talked to soldiers who serve 
at Fort Carson. They appreciate very much how their neighbors 
in Colorado Springs and in Colorado embrace them.
    As you and I have talked, I think we got off on the wrong 
foot in some regards in the effort to expand Pinon Canyon. Our 
goal is to accomplish the expansion, but we want to do it in a 
way that accommodates the legitimate needs of the neighbors up 
there. We want to be a good neighbor. We know that their goal 
is to be a good neighbor as well.
    So we would like to continue to work with you and other 
State leaders in figuring out a way where we can accomplish 
what we need and the landowners in that area can get their 
needs met as well. As you know, we have taken eminent domain 
off the table. We are not going to force this. We want to work 
in a cooperative way to get this done. We are hopeful that, 
with that approach, that over the coming months--or it might 
take years--we will be able to put it together.
    Thank you for your leadership on it. I appreciate your 
help.
    Mr. Coffman. Secretary Geren, how would you respond to 
critics who claim that the Army has not yet adequately 
justified its need to expand the Pinon Canyon maneuver site?
    Secretary Geren. Well, the original expansion was over 
400,000 acres. We have reduced our goals for that, and there is 
still some debate over exactly what the right size is. But you 
look at the training requirements we have today and the space 
we need in order to achieve a realistic representation of what 
a brigade combat team would experience in combat today, we do 
need to grow it.
    I think most people would say the 400,000 acres that were 
originally proposed, not needed. We have looked at numbers 
considerably less than that. But we need to expand it, and it 
is the accessibility of it, the proximity of it to Fort Carson 
that saves us a considerable amount of money so we don't have 
to send those brigades a long way off to get that type of 
training.
    Mr. Coffman. Thank you.
    Secretary Geren, I think that there have been expressed 
some concerns by the local citizens in southeastern Colorado 
that if the Army gets the authority to expand the Pinon Canyon 
maneuver site, as to whether or not the Army will live up to 
their commitment in terms of jobs in those local communities. I 
wonder if you could respond to that.
    Secretary Geren. Well, our installation command, as well as 
the civilian leadership, has been working with the local 
communities; and Trinidad, I believe, is one of the communities 
that had some concerns about that. And, again, our goal is to 
make it work for the whole community, make it work for the 
region, and want to continue to work with those communities so 
that the economic benefits of that expansion would benefit the 
region. So we want to listen. We want to figure out how to make 
it work.
    And I know that we have looked at some military 
construction in certain areas and, also, there are--some of the 
contractor and the support workforce that would be coming into 
the region and working with the communities to determine how we 
best site that so that it does provide the economic benefit to 
the area.
    Mr. Coffman. Secretary Geren, quick question. Last 
question. Are you committed not to go forward with the 
Environmental Impact Statement (EIS) until these issues have 
been worked out with the local community? What is your position 
on the Environmental Impact Statement?
    Secretary Geren. Well, I need to get back with you on that. 
We have limitations that were put upon us by the Congress as 
far as what kind of funds we could spend as we research this 
undertaking, and I would have to get back with you on whether 
or not--what the impact is on the EIS. I don't know the answer 
to that.
    [The information referred to was not available at the time 
of printing.]
    Mr. Coffman. Thank you, Secretary Geren. Thank you.
    Secretary Geren. We are going to work with the Congress, 
and the Congress has put some restrictions on it, and I assure 
you we are going to live up to those restrictions.
    The Chairman. Mr. Massa.
    Mr. Massa. Thank you, Mr. Chairman.
    Mr. Secretary, General, thank you very much for being here. 
Later in the day, I had the pleasure of just canceling a flight 
to be able to sit and have a conversation, and I appreciate 
your patience.
    I, also, as a veteran myself, honor your service and 
recognize all that you and your team do for our troops every 
day in the field.
    That having been said, I would like to register a very 
significant concern that I have been in conversations with 
leadership of the United States Army now for some 120 days.
    As I look at the future of communications in the United 
States Army, a field of endeavor not entirely unknown based on 
my own personal professional past, I am exceptionally concerned 
about the more than $700 million that is about to be spent on a 
single-channel, frequency-hopping Very High Frequency (VHF) 
radio, when alternate technologies that are far more compatible 
with the future needs of the force are extant in the commercial 
world. I speak today of Single Channel Ground and Airborne 
Radio System (SINCGARS) radios.
    Satisfying an Operational Requirements Document (ORD) and a 
requirement that is more than 25 years old is not what I 
consider to be forward thinking. I am certainly not advocating 
on behalf of a single company, corporation, producer or 
manufacturer but, rather, on the reality that in the last 25 
years we have seen tremendous increases in mobile 
telecommunications and radio technologies. And from my own 
personal experience in the field, if you have the opportunity 
to offer a platoon leader, a sergeant, a squad leader, a 
handheld radio that has a single VHF channel operation 
capability, or one at the same time with a flick of a switch 
that gives you VHF, Ultra High Frequency (UHF), satellite, 
satellite data capability for the same cost, I have yet to meet 
a soldier in uniform that does not take the more capable radio.
    So I register today officially exceptional concern about 
some $700 million that is about to be spent on a radio that is 
both fundamentally incompatible with your number one 
acquisition priority, which is the future combat system, and 
the needs in the field. I don't know how else to place my words 
on the table for the official record.
    I have had conversation after conversation after 
conversation with general officers, but, more importantly, the 
same conversations with individuals fresh home from Iraq who 
are the end users of these communication devices who, without 
my prompting, concur with the fact that we are about to waste 
one heck of a lot of money; and in a budgetary environment 
where literally we are counting by billions, which is something 
I don't quite understand, I think we are about to make a 
horrific mistake.
    And, Mr. Secretary, I speak to your announcement that this 
contract award is about to be made. I worked very hard in a 
supplemental to have funds reprogrammed to higher priorities, 
but I don't have the capability to change this $700 plus 
million dollars that you are about to spend other than to, with 
the utmost of respect and professionalism, ask you and your 
team to reconsider.
    Your comments, sir.
    Secretary Geren. Well, thank you for raising that issue. 
But, as you know, we are--we do have a competition out to 
complete the buy----
    Mr. Massa. Sir, if I could just--and I am sorry to do this, 
because I know it sounds disrespectful.
    The Army is competing a single channel VHF radio. That is 
not competition. It just doesn't work that way, sir. And I am 
sorry to be contrary. I am not trying to be confrontational, 
but the statement that the Army is competing is just not 
accurate.
    Secretary Geren. We have a competition that is in the final 
stages to complete the buy of the SINCGARS radio, 56,000--the 
last 56,000 of the buy. We are making tremendous investments in 
the next-generation radio. This will complete our buy that has 
been going on for years, and it is the last step of the 
process, and we will be announcing sometime fairly soon the 
outcome of that decision.
    Mr. Massa. Mr. Secretary, I am sorry, for the record. I 
absolutely disagree with you.
    Secretary Geren. I respect that.
    Mr. Massa. And the facts do not bear out that statement. I 
am sorry. We are competing a single-channel SINCGARS radio that 
does not match up with the needs of the force. And this is not 
my opinion. This is the opinion of warriors and combatants who 
have returned with this story to me, not anecdotally but in 
overwhelming preponderance of evidence. It is evidence of an 
acquisition process that is so unable to react to the 
requirements on the field that we are buying 53,000 radios----
    Secretary Geren. Fifty-six.
    Mr. Massa. I am sorry, 56,000 radios. Thank you for making 
my point for me. And every general officer with whom I have had 
this conversation, every single soldier with whom I have had 
this conversation, when given the opportunity for to buy better 
technology for the same price would rather do that. It is an 
example of an acquisition process that has gone awry, and I 
can't agree with you, but thank you for stating your position.
    Secretary Geren. I appreciate your observations. Thank you.
    The Chairman. Mr. Mike Rogers, please.
    Mr. Rogers. Thank you.
    I want to thank both of you for being here and for your 
service. It is very much appreciated by the whole country.
    I want to talk to you about the budget request on the 
Stryker. As you know, we have--I keep hearing calls for 
additional variants on the Stryker, and I hear that the Army 
wants to keep production warm in anticipation of the 
Quadrennial Defense Review (QDR). And given the significant 
investments we have made in the Stryker, you know, 260 of these 
Strykers in the supplemental and $390 million for enhancements 
and modifications, what do you see the Stryker of the future? 
Where is it going?
    Either one of you or both of you can take that.
    Secretary Geren. We are looking at the future force mix, 
examining what it is going to look like in the years ahead, and 
it is possible at the end of this process that the decision 
will be made that some of the heavy brigades could become 
Stryker brigades. The Stryker brigades have served to great 
effect in the current conflict. It has been an extraordinarily 
successful program, and we are working within the Army and 
working with the Office of the Secretary of Defense (OSD), with 
the QDR, and I think that at the end of this process it is--the 
issue of the future of the Stryker could end up being in a 
different place than it is today. It is hard to say where it 
will come out, but I think it is quite likely that we will see 
an expanded role for the Stryker in the future. That is looking 
at a crystal ball.
    Chief, you want to add some to that?
    General Casey. I mentioned in my opening statement about 
the need to have a versatile mix of tailorable organizations 
organized on a rotational cycle. Because, as we look to the 
future, one thing we know is we never get it quite right. So we 
want to have available with every rotational cycle a mix of 
capabilities, Strykers, heavies, lights, and probably some 
lights, infantry units on MRAPs, and things like that. That is 
the type of thinking we are doing as part of this QDR to build 
the versatile mix of forces that we need for the 21st century. 
And I agree with the Secretary that it is likely or possible 
that the Strykers could have an increased role in that.
    Mr. Rogers. Great.
    The Secretary made some reference to future combat systems. 
Obviously, y'all have made--there have been proposed some 
significant cuts in these combat systems. My concern is or the 
thing I would like you to respond to is if we continue to 
pursue these cuts, is there a chance it is going to make us 
much more reliant on our current legacy fleet, things like the 
M113, which we heretofore have been phasing out?
    General Casey. Thank you. The only element of the future 
combat systems program that has been canceled is the manned 
ground vehicle, and I include the non-line-of-sight cannon as 
part of that.
    As we went through the deliberations here, first of all, 
the Secretary of Defense is very comfortable with the things we 
call the spinouts, that is the network and everything else. And 
that is going forward. It is not only going forward. It is 
going forward to all of the brigades, not just some of them.
    When it came to the manned ground vehicle, I was not able 
to convince the Secretary of Defense that we had incorporated 
enough of the lessons learned from the current operations we 
were in into that manned ground vehicle. And so what he asked 
us to do was stop, take out a clean sheet of paper, incorporate 
the lessons that we have learned, use the technology that we 
have developed in the future combat systems. Because we know 
where vehicle technology is, because that program has helped us 
get there, and put it together and come back with a new ground 
combat vehicle that will be full spectrum. It wouldn't 
necessarily be optimized for major combat operations like the 
tanks and the Bradley but would maybe be able to do that.
    So that is what we are doing, and we expect to come back 
and have a new concept design after Labor Day. And then we will 
bring that forward, and we want to work very closely with 
Congress as we are working with the Department to get a program 
that is supported. But we need a fighting vehicle, and this 
ground combat vehicle will be a fighting vehicle.
    And we have also put on a time horizon of five to seven 
years, which tells us we need to use the technology that is 
available today to go forward; and I think that will help us. 
That will actually deliver that ground combat vehicle around 
the same time that we would have had it at our future combat 
systems program. So we are treating this as an----
    Mr. Rogers. Thank you. Thank you both for your service.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    Mr. Secretary, General, thank you for being here.
    And, Mr. Secretary, congratulations on your success and 
service. You prove there can be life after Congress.
    And, General, I found out from a mutual friend of ours, 
Mike Flack, who is the director of the Columbia Metropolitan 
Airport, that the three of us were cadets, Army Reserve 
Officers' Training Corps (ROTC) cadets, at Indiantown Gap 
Military Reservation, Annville, Pennsylvania, during the summer 
of 1968.
    So Mike and I are very impressed and appreciative of your 
success; and I am grateful to be here and, in particular, 
because my dad served with the Flying Tigers, Army Air Corps. I 
am a son of a veteran. I served 31 years in the Guard and 
Reserve myself, but I am particularly grateful. I have four 
sons serving in the military; and three them, of course, have 
chosen to serve in the Army National Guard. One of our sons 
served field artillery in Iraq. Another has served signal in 
Egypt. The fourth guy just joined the National Guard, but he is 
Army ROTC. So I am very, very much appreciative of your 
promoting national defense but providing opportunity for young 
people to serve our country.
    And, Secretary Geren, I am very grateful to be on the 
Military Personnel Subcommittee with Chairwoman Susan Davis. We 
have been reviewing problems in the past couple of years in 
regard to suicide, sexual assaults, criminal behavior, drugs. 
Has this Army's waiver policy contributed to this problem, and 
is the quality of recruits what it should be?
    Secretary Geren. Let me first say that only 3 out of 10 
young people today meet the requirements to join the United 
States Army, meet the academic, meet the moral and the physical 
requirements to be a soldier today, top 30 percent of our kids.
    The other screen that tells you a whole lot about the young 
men and women who join the Army is they are joining the Army in 
the middle of a war. So we are getting outstanding young men 
and women in the Army.
    As far as the issues you have raised, we have examined very 
closely the performance of the soldiers that have come in under 
the waiver process, and I would say none of the issues that you 
raise have we found any connection between waivers and those 
issues. In fact, we just recently finished a look to look at 
soldiers who came in under waivers and suicide rates, and the 
suicide rate among the soldiers who came in under waivers was 
lower than it was for those that didn't.
    You mentioned sexual assault. If you are a registered 
sexual offender, you don't get in the United States Army, 
period. We have found no connection between the number of 
waivers and the instance of sexual assault.
    We watch these issues very closely. We have learned with 
our recent study of waivers that there are a couple of 
categories that have not performed as we would like them to.
    We have been giving drug and alcohol waivers. Those are 
people who test positive for drug and alcohol. We have been 
working with them, in some cases going through this 10-step 
process and giving them a waiver, providing them an opportunity 
to join the Army. We have found through this recent review that 
we have done that the recidivism rate for those soldiers is 
higher than the other soldiers who came in through other 
processes. So we have recently closed that category. You are no 
longer eligible if you test positive for drug or alcohol. You 
are no longer able to get into the Army.
    So our recruiting process has been a living and learning. 
As we work with the waiver process, we will open up and try 
some areas. If we learn that there are problems associated with 
it, we shut that down. But, by and large, the young men and 
women who joined the Army over the last eight years, those who 
have come in under waivers have performed with great 
distinction, in many cases, achieved valor awards at a higher 
rate than those who came in the other category.
    It is a very labor-intensive process to come in under a 
waiver. It is, as I mentioned a 10-step process for every one 
of those. It is really hand-picking. But as we learn about some 
of those categories' performance, if there are problems, we are 
shaping the waiver process to work them out of the system.
    Mr. Wilson. Also, in our subcommittee we have been 
following this situation of sexual assaults and response. You 
had announced in January specific positions to be added. What 
is the status on adding positions to address this situation?
    Secretary Geren. If you look at the way the private sector 
handles sexual assault investigation and prosecution, it has 
become a very specialized area, with specialized investigators, 
specialized prosecutors. We are recreating that in the Army, 
and we are using the highly qualified expert authority that 
y'all gave us a couple of years ago to go out and the get the 
very best people in the outside world in investigation and in 
prosecution and building within the Army what we believe will 
be one of the best teams in that area in the country.
    Mr. Wilson. Thank you very much.
    The Chairman. We are nearing the end, and I couldn't let 
you leave without, General, talking about the joint cargo 
aircraft. How would you like to tell us about the decisions and 
what went into them regarding the joint cargo aircraft?
    General Casey. Sure, chairman, I would be happy to.
    We have been working on this program for a while. When I 
got there, I reviewed the program, and it is something that we 
need. We need to be able to supply our units in forward bases 
out of airstrips that can accommodate a C-130, and we are doing 
that now in places in Iraq and Afghanistan with the Sherpa.
    But as I thought my way through that, and I look at the 
range of things that the Army is doing these days, as I said 
earlier, you know, flying cargo aircraft isn't my core 
competency. It is Air Force's core competency. And I thought 
that if I could get the Air Force to take over the planes and 
give me the service, that would be the best of all worlds.
    So I worked it with General Moseley. We weren't able to 
bring it to conclusion. And then I worked it again with General 
Schwartz, and we had a broad conceptual agreement. We still 
have to work out the details of how we will do this, and we 
have until the end of May to come back and tell the Department.
    So it is one of those things that I felt was an Air Force 
mission. As long as I got the service, they are the experts, 
and so I felt comfortable giving that to them.
    The Chairman. How about the Army National Guard, joint 
cargo aircraft units?
    General Casey. That is part of the details that has to be 
worked out. You know, initially in my thinking, I expected that 
would stay in the Guard. It might be the Air Guard, and we 
might work something creative where our Army pilots shift over 
to the Air Guard for a time until they retire.
    The Chairman. Would you have to change an entire unit to 
the Air Force Guard?
    General Casey. That is one of the things--we have asked 
General Craig McKinley, Director of the Guard, to work through 
that and help us do that with the Army Guard and the Air Guard.
    The Chairman. When will you have a final decision on that?
    General Casey. We owe a report by the end of May back to 
the Department on the implementation. I don't know that we will 
have the whole memorandum of understanding, you know, to do all 
this by then, but we will have a preliminary report by the end 
of the month.
    The Chairman. Will that include the Army National Guard 
units, your requirement at the end of May?
    General Casey. I don't know that we will have complete 
resolution on that by the end of May, but the Guard will be 
very much included in the discussions. They are very much 
included.
    The Chairman. If you transfer Army National Guard cargo 
aircraft units to the Air Force National Guard, wouldn't there 
be a problem in retaining rank and longevity, et cetera, for 
your--say, the sergeants and the corporals and the captains?
    General Casey. Chairman, I don't know. As I said, we have 
to work through the modalities of all that. I said that was a 
possibility. I wouldn't want anyone to leave here thinking that 
that is what we have decided to do. That is one of the options.
    The Chairman. If you did that, you would have to guarantee 
that persons who have been in the Army National Guard for years 
and years will not be penalized should he wear a different 
color of uniform doing the same mission.
    General Casey. Absolutely. Anything we do will take into 
consideration the people aspects of this.
    The Chairman. Thank you so much.
    John McHugh.
    Mr. McHugh. None, Mr. Chairman.
    The Chairman. Gentlemen, thank you so much for being with 
us. Appreciate your testimony, and we are very grateful for the 
hard work that you do for our soldiers.
    [Whereupon, at 4:58 p.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                              May 14, 2009

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 14, 2009

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 14, 2009

=======================================================================


                   QUESTIONS SUBMITTED BY MR. LAMBORN

    Mr. Lamborn. When the original decision was made to grow the Army 
to 48 BCTs, the Vice Chief of the Army, Gen Dick Cody, briefed that the 
stationing decision for the additional 65,000 active duty forces was 
built on the analysis and studies of all 304 Army posts, camps, and 
installations. Key considerations in the decision included maximizing 
support for the growth while balancing future growth potential, power 
projection, training capacity in maneuver training areas and ranges, 
and quality of life. Given that the end strength is not changing, what 
analysis has been done that supports the decision to stop BCT growth at 
45 versus 48 BCTs?
    Secretary Geren and General Casey. The Office of the Secretary of 
Defense (OSD) completed a manpower analyses which resulted in the 
SECDEF's decision to halt the growth of Army Brigade Combat Teams 
(BCTs) at 45 versus 48, while maintaining the planned increase in 
Active Component end strength at 547,400. This decision was to ensure 
the Army has better-manned units ready to deploy, and help put an end 
to the routine use of Stop Loss. Although the Grow the Army Plan and 
associated stationing actions remain on track, eight years of sustained 
combat operations have increased non-deployable rates in our units. 
This requires the Army to overfill deploying units in order to deploy 
at a minimum of 90% fill. The additional Soldiers needed to overfill 
these units reduced available strength for resetting units and the rest 
of the Army, which impacted the overall readiness of the force. By not 
building the last three BCTs, 10,300 Soldiers which would have been 
used to build the last three BCTs, are now available for the Army to 
continue to ensure deploying units are appropriately manned, while 
eventually eliminating stop loss.
    Mr. Lamborn. Since the Army goal appears to be focused on ``better-
manned'' units ready to deploy, will Fort Carson see the expected 4,800 
Soldier increase in FY11 previously released by the Army?
    Secretary Geren and General Casey. The planned FY11 activation of 
the 5th Brigade, 4th Infantry Division at Fort Carson was cancelled 
following the Secretary of the Army's announcement on June 2, 2009, to 
halt the Army's plan to grow three additional brigade combat teams. 
This reduced Fort Carson's planned growth in FY11 by 3,452 Soldiers, 
and Fort Carson's projected FY11 Soldier population is expected to be 
25,101. Using the 2003 Fort Carson population of 15,119 as a baseline 
for comparison, this demonstrates an increase in Soldier population of 
9,982 at Fort Carson by FY11. Installation populations will continue to 
fluctuate based on operational needs and force structure decisions.
    Mr. Lamborn. Can you provide further documentation and analysis 
showing the need for additional acreage for training purposes at the 
Pinon Canyon Maneuver Site?
    Secretary Geren and General Casey. The current Army position is 
that there will be no further action on Pinon Canyon Maneuver Site 
(PMCS) expansion until land owners, willing to sell or lease their 
land, officially approach the Army. The Army has provided many written 
reports, analyses, responses to queries, information papers, and 
briefings to Congress regarding the training needs at the Pinon Canyon 
Maneuver Site. There are no further documents defining requirements for 
land at Pinon Canyon Maneuver Site. A partial list of PMCS related 
documents is provided below.
    Army Reports and Studies and Responses Pertaining to Land 
Acquisition at PCMS:
     1.  FY 2008 National Defense Authorization Act, Section 2831 (a) 
Report on Pinon Canyon Maneuver Site, 18 Jul 08,
     2.  FY 2008 National Defense Authorization Act, Section 2829 (a) 
Report on Utilization and Potential Expansion of Army Operational 
Ranges, 25 Jul 08,
     3.  FY 2007 National Defense Authorization Act, Section 2827 (a) 
Report on Pinon Canyon Maneuver Site, 30 Nov 06,
     4.  FY 2007 National Defense Authorization Act, Section 2827 (c) 
Report on Potential Expansion of Army Operational Ranges, 1 Feb 07,
     5.  Pinon Canyon Maneuver Site Land Use Requirements Study (LURS), 
17 Mar 05,
     6.  Pinon Canyon Maneuver Site Analysis of Alternatives Study 
(AAS), 18 Mar 05,
     7.  Pinon Canyon Maneuver Site, CO Army Major Land Acquisition 
Proposal (AMLAP), 18 Jul 06,
     8.  Fort Carson and Pinon Canyon Maneuver Site Community Research, 
Jul 08,
     9.  Information Paper on the Use of Other Federal Lands for 
Training at PCMS, provided to Rep. Salazar staff, 1 Apr 09,
    10.  Insert for the Record (Page 68, Line 1505), HASC-Readiness 
hearing, 24 Feb 2009,
    11.  Response to Rep. Rob Bishop (R-UT) question regarding other 
Army land in Utah,
    12.  Range and Training Land Strategy, 11 Feb 04 (redacted version 
provided to GAO in Nov 08).
    Mr. Lamborn. As you know, the Government Accountability Office 
(GAO) stated that the National Environmental Policy Act (NEPA) process 
``may address many questions.'' The report went on to state ``nothing 
in our recommendation prevents the Army from using the NEPA process to 
provide...the information to Congress in a timely manner.'' Do you 
agree with the GAO? Do you believe that the best way for the Army to 
provide the remaining answers to Congress on PCMS is to complete an EIS 
on PCMS expansion?
    Secretary Geren and General Casey. Completion of an EIS, as part of 
the National Environmental Policy Act (NEPA) process, would potentially 
provide beneficial insights. However, the current Army position is that 
there will be no further action on PCMS expansion until land owners, 
willing to sell or lease their land, approach the Army. If those 
conditions were met, and a decision made to pursue expansion at PCMS, 
the Army would complete the appropriate NEPA actions.
    Mr. Lamborn. The Army told Congress in its July 2008 report that if 
an agreement were forged to expand PCMS, the Army would invest over 
$140M in new range facilities to take advantage of the increase 
training capability. These facilities would employ over 100 people. Can 
the Army reassure the local citizens of Southeast Colorado that if the 
Army gets the authority to expand PCMS that you will live up to the 
commitment to create these jobs and make these investments? One of the 
key concerns for opponents is the perception that the Army failed to 
live up to past promises regarding Army investments in the local 
community surrounding the original creation of PCMS.
    Secretary Geren and General Casey. The current Army position is 
that there will be no further action on Pinon Canyon Maneuver Site 
expansion until land owners, willing to sell or lease their land, 
officially approach the Army. As such, there are no plans to invest in 
$140M in range facilities nor will there be any need to create 
additional jobs.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WITTMAN
    Mr. Wittman. The Army's vehicle modernization plan for the previous 
six years has focused on the fielding of the FCS family of vehicles. 
The cornerstone of that plan was the introduction of the Manned Ground 
Vehicles (MGVs) that provide significantly increased capabilities in 
lethality, survivability, situational awareness, reliability, 
maintainability and reduced life cycle costs compared to the combat 
vehicles in the current forces today. We understand that FCS vehicle 
designs have evolved to incorporate many of the lessons learned from 
Iraq and Afghanistan and the MGVs provide survivability protection 
equal to or better than current force vehicles. Further, the MGVs and 
all other FCS system components have successfully completed a major 
design review. Given only $100M has been allocated for these MGVs in 
FY10, how will the Army take advantage of the technologies and 
capabilities developed under the FCS program in a new combat vehicle 
development program while maintaining the momentum and schedule 
associated with the FCS program?
    Secretary Geren. The Army intends to take advantage of the 
technologies and capabilities developed under Future Combat Systems 
(FCS) by making relevant hardware, software, and design work available 
to potential bidders for the Ground Combat Vehicle (GCV). Additionally, 
the Army anticipates that the demonstrated technologies developed under 
the FCS program will be captured in the new GCV requirements. The 
relevance of this hardware, software, and design work will be 
determined by the requirements update as directed by FCS Brigade Combat 
Team (BCT) Acquisition Decision Memorandum (ADM), dated 23 June 2009.
    In accordance with direction given in the FCS (BCT) ADM issued by 
the Defense Acquisition Executive, the MGV portions of the FCS program 
has been terminated or put on a stop work order. These actions and the 
reassessment of GCV requirements have fundamentally changed the 
schedule from that of the original FCS program.
    Mr. Wittman. After billions of dollars have been invested in FCS 
MGVs over the past six years, please explain to this committee why the 
Army cannot leverage this investment, adapt the MGV design to any 
updated threat requirements, and field these vehicles in the 2015 
timeframe as was originally intended?
    Secretary Geren. The FCS MGV designs were adjusted to meet updated 
threat requirements, most recently in 2007, and again at the end of 
2008. Increasing the survivability significantly from the MGV 
Preliminary Design Review design point to meet the updated threat 
requirements will require significant redesign of the MGV common 
chassis, which will delay the MGV fielding timeline.
    Mr. Wittman. The FCS MGVs were specifically designed for 
commonality and increased reliability to reduce the operational cost 
associated with the current force vehicles they are replacing. To date 
the program is meeting all development goals and milestones. Can the 
Army afford the increased operational costs of keeping the existing 
current force vehicles around longer due to the production delays 
associated with MGVs?
    Secretary Geren. As a result of the generous support from Congress 
for our Soldiers, the Army has made significant progress over the last 
several years modernizing and resetting our Combat Vehicles. Therefore 
we do not foresee a significant increase in operational costs over the 
near term as a result of keeping the existing current force vehicles 
longer due to the termination of the FCS program. We believe several 
years of reset and modernization, readiness profiles, and the overall 
health of the fleets in question mitigate the risk of significant 
Operations and Sustainment increases in the short term. For example, 
the M1 Abrams tanks and M2 Bradley Fighting Vehicles fleets have been 
undergoing recapitalization efforts since 2001. Recapitalization, 
coupled with Reset, has resulted in a majority of the M1 Abrams tank 
and M2 Bradley Fighting Vehicles being reset or recapitalized since 
March 2004. This has resulted in an overall extension to the Abrams and 
Bradley fleet life and mitigates the potential growth in Operations and 
Sustainment costs. As a result, the average operational readiness rate 
for these fleets has been above 90 percent since 2008.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOEBSACK
    Mr. Loebsack. I am glad to see funding included in the budget 
request for the Iowa Army Ammunition Plant. The Iowa Ammunition Plant 
plays a critical role in our national defense, and modernizing the 
facility is essential to assuring that the men and women who work there 
do so in a safe and productive environment.
    I am also very glad to see that the three Iowa National Guard BRAC 
sites in my District (in Cedar Rapids, Muscatine, and Middletown) that 
have been awaiting funding for several years have been included in the 
budget request for FY 2010. These are critical facilities for the Iowa 
Guard and their modernization will be essential to readiness and 
recruiting efforts.
    You state in your joint testimony that in 2008, the Army initiated 
a six month pilot reset program and that you are applying the lessons 
learned from this program to accomplish reset objectives at home 
stations. You also state that it is your goal to complete the 
transformation of the Reserve Components to an operational force by 
changing the way you train, equip, resource, and mobilize Reserve 
Component units by 2012.
    Can you elaborate on these efforts and specifically address how the 
Army is assuring that the Reserve Components have the equipment they 
need to train for, and respond to, the full spectrum of their mission, 
including homeland defense and emergency response?
    Secretary Geren and General Casey. The Army's equipping goal is to 
ensure that Soldiers of both Active and Reserve Components always have 
the equipment they need to execute their assigned mission as they 
progress through the cyclic readiness model. That is equipping balance. 
Balancing growing requirements and fiscal constraints across all areas 
within a cyclical readiness model to provide trained and ready units to 
Combatant Commanders is critical.
    Since we began to develop modular formations and implement Army 
Force Generation (ARFORGEN), we have developed a strategy to meet the 
variable equipping needs of a force being managed under cyclic 
readiness. The Army's strategy is to Equip to Mission: As units move 
through the ARFORGEN cycle, their missions change, as do their 
equipment requirements. We manage equipment to ensure units have the 
right types and amounts at the right times.
    The Army Equipping Strategy clearly articulates the equipping goals 
for all units, regardless of component, for each phase of the ARFORGEN 
and acknowledges the Army National Guard (ARNG) requirement for 
Critical Dual Use (CDU) equipment. ARFORGEN ensures Reserve Components 
have the equipment they need to train for and respond to the full 
spectrum of combat missions. The CDU equipment is not ARFORGEN-
dependent and consists of a list of equipment required to support 10 
essential capabilities in support of homeland security and homeland 
defense. The goal is for each unit, in each state, to have on hand this 
list of equipment and in quantities indicated on its Modified Table of 
Organization and Equipment (MTOE). Additional equipment not listed on 
the MTOE is also included. The list of equipment was developed in close 
coordination with the states and lessons learned from responses to 
natural disasters such as hurricane relief. Equipping the ARNG with 
sufficient CDU equipment ensures they have the equipment they need to 
support homeland security missions and emergency response.
    Mr. Loebsack. Can you discuss how shifting the Joint Cargo Aircraft 
solely to the Air Force will affect the National Guard's intra-theater 
airlift capability and domestic response?
    Secretary Geren and General Casey. In and of itself, shifting the 
JCA solely to the Air Force will not affect the National Guard's intra-
theater airlift capability. The Air Force's stated plan is to field all 
38 JCAs in the Air National Guard so JCA will remain a National Guard 
asset. Current procedures allow State Adjutants General to request the 
assistance of airlift assets from both the Army National Guard and the 
Air National Guard. The stationing plan for the Air National Guard 
JCAs, which will potentially affect response time, will be shaped 
during final stationing decisions.
    Mr. Loebsack. Do you believe that the Army National Guard end 
strength goal of 358,200 will allow for proper dwell time, full 
training, increased readiness levels, and the end of cross leveling 
while also reducing the stress on the force?
    Secretary Geren and General Casey. The Army National Guard (ARNG) 
end strength of 358,200 does not alleviate the stress on the force, 
eliminate cross leveling, or increase readiness. Inside the 358,200 end 
strength are: Soldiers who have not completed their initial entry 
training, Warriors in Transition, and personnel who are non-deployable 
due to medical issues. This causes un-readiness in ARNG units forcing 
commanders to cross-level 30%-35% of the unit personnel prior to 
deployment. The elimination of Stop Loss authority further challenges 
deploying units to mitigate cross leveling.
    The Army recognizes the ARNG concerns and the Total Army Analysis 
(TAA) major objective is to create a Trainees, Transients, Holdees, and 
Students (TTHS) account. However, to increase unit readiness and reduce 
the need to cross level fully trained Soldiers into the deployment 
cycle earlier than projected, the ARNG also proposes growing its end 
strength to create a TTHS account of similar size and scope as the 
Active Component (AC). The AC places 13% of its assigned strength in a 
TTHS account which is not associated with force structure.
    If approved, the ARNG will be able to stabilize deploying units 
earlier in the deployment cycle, increase the dwell Army goal of 1:4 
and make future deployments more predictable for the Citizen-Soldiers 
who are answering the nation's call, reducing the stress in the force.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. GIFFORDS
    Ms. Giffords. The cancellation of the Mid Range Munition program 
appears to be premature. It is likely that TRADOC's future 
recommendation on a new Mounted Combat System will require a stand-off, 
Beyond Line of Sight (BLOS) capability that MRM currently provides. It 
is also a logical assumption that the current force could benefit from 
such a capability. Is there a JROC-approved requirement for a BLOS 
capability for the MCS? Is there Capabilities Decision Document (CDD) 
currently being staffed that requires BLOS and enhanced lethality in 
the Abrams? If both requirements remain valid, how does the Army intend 
to satisfy these BLOS requirements without MRM?
    Secretary Geren and General Casey. The JROC-approved Future Combat 
Systems (FCS) Operational Requirements Document includes a requirement 
for a BLOS capability for the MCS. Additionally, the JROC approved the 
MRM CDD. The Abrams CDD also includes a BLOS requirement to enhance 
both lethality and force protection due to greater stand-off against 
Anti-Tank Guided Munitions threats. The Army is re-evaluating its 
Brigade Combat Team modernization strategy to include vehicles as well 
as enabling munitions.
    Ms. Giffords. Is the Army predicating the MRM termination based on 
an assumption that alternative precision indirect fire solutions are 
available to satisfy a BLOS capability requirement? Can you assure the 
Committee that the Army is not intending to fill this requirement only 
with precision indirect fires? Can you comment further on how the 
CONOPS associated with an MRM-type weapon differs from an indirect fire 
support mission?
    Secretary Geren and General Casey. The Army is terminating MRM 
because funding for its development and acquisition strategy is tied to 
the termination of Future Combat Systems (FCS). However, the Joint 
Requirements Oversight Council (JROC)-approved MRM Capabilities 
Development Document requires MRM be compatible with both FCS and 
Abrams. The Army is re-evaluating its Brigade Combat Team (BCT) 
modernization strategy to include vehicles as well as enabling 
munitions. The concept of operations for MRM type weapons is dependent 
on BCT enablers and on overall BCT modernization.
    MRM is a precision munition fired from a 120mm tank main gun using 
direct shooter-to-sensor linkage to provide Beyond Line of Sight 
capability. This characteristic is what makes MRM a direct fire 
capability instead of indirect fire. Additional information about MRM: 
(1) With shooter-to-sensor linkage, MRM is a traditional direct fire 
system that can engage targets ``over the hill'' or into the next 
terrain compartment; (2) Because MRM is not guided with a global 
positioning system (GPS) it can engage moving targets such as vehicle 
borne improvised explosive devices (VBIEDs) or mortars mounted in pick-
up trucks as well as heavy armor; (3) MRM is an extension of the direct 
fire capability of the tank main gun as opposed to indirect fire which 
transits the battle space. MRM is fired in a company size area of 
operation; (4) MRM does not have the latency of indirect fire because 
it is fired from a high density platform in the formation. It requires 
less time to travel because tanks are generally in the vicinity of the 
action. For example a battery will fire targets sequentially while a 
company of Abrams could fire multiple targets simultaneously; (5) MRM 
cannot be fired using an extreme high angle like indirect fire systems.
    Ms. Giffords. Given the success of the Abrams tank in Iraq in both 
conventional and irregular warfare and testing that indicates that MRM 
would also be effective against armor, bunkers, structures, troops and 
thin skinned vehicles, isn't it prudent to maintain funding for the MRM 
program? Would the MRM program help the Army maintain a capabilities 
balance within modernization for full spectrum operations?
    Secretary Geren and General Casey. We continue to assess the 
lethality requirements of our ground combat formations carefully to 
ensure these formations are equipped properly for Irregular/Hybrid 
Warfare combat operations while also ensuring our Army maintains a 
campaign and expeditionary quality force with full spectrum 
capabilities. While we recognize the tremendous capability Beyond Line 
of Sight (BLOS) munitions like Mid-Range Munition (MRM) can potentially 
provide our Soldiers and formations, we are in the process of refining 
our Brigade Combat Team (BCT) modernization strategy and force 
structure plans to ensure our Army is equipped properly for the wide 
range of warfighting capabilities required for these types of 
operations and missions. Additionally, the ongoing Quadrennial Defense 
Review (QDR) will further illuminate Army warfighting requirements and 
the associated modernization requirements. Whatever approach we take 
regarding BLOS munitions, it will be integrated with and supporting of 
our BCT modernization strategy and force structure plan, as well as 
meeting QDR-directed capabilities. In doing so, we will ensure our 
Soldiers and formations continue to have lethality overmatch during 
this ongoing period of persistent conflict.
    Ms. Giffords. Did the Army evaluate the possibility of sustaining 
the MRM program at a minimum rate through FY10 in the likely event that 
any new ground vehicle would also have the requirement for BLOS 
capability?
    Secretary Geren and General Casey. No. With the termination of 
Future Combat Systems Manned Ground Vehicles, there is no current, 
validated requirement for MRM in FY10. Should a future Ground Combat 
Vehicle requirement include a BLOS capability, all options would be 
evaluated to meet that need.
    Ms. Giffords. What is the minimum budget required to sustain the 
MRM program through FY10?
    Secretary Geren and General Casey. Since the FCS Manned Ground 
Vehicle program was terminated and the funding eliminated, there is no 
justification for sustaining MRM in FY10. Accordingly, no budget 
projections have been prepared for the program.
    Ms. Giffords. Has the Army evaluated the termination costs 
associated with the proposed cancellation of the Mid Range Munition 
program in the FY10 request? What would those costs be and do they 
exceed the costs associated with maintaining a minimum rate of 
production through FY10?
    Secretary Geren and General Casey. All termination costs will be 
borne from current FY09 Research, Development, Test and Evaluation 
funds. Termination cost is estimated to be about $1.4 million. There is 
no cost of maintaining a minimum rate of production since MRM would 
have still been in Engineering and Manufacturing Development in FY10.
    Ms. Giffords. What would be the restart costs associated with MRM 
if the program were to be reconstituted in FY11?
    Secretary Geren and General Casey. The cost to reconstitute and 
restart MRM beginning in FY11 would be about $75 million more over the 
previous Engineering and Manufacturing Development total program cost.
    Ms. Giffords. If MRM were cancelled this year and the requirement 
revalidated under a new ground system program, would the Army also be 
required to pay the costs of recompeting this capability, adding to the 
overall cost?
    Secretary Geren and General Casey. Yes.
    Ms. Giffords. Would a decision to defer termination of MRM until 
the MGV program is realigned be less costly than termination in FY10?
    Secretary Geren and General Casey. The Army made the decision to 
terminate MRM in July 2009 and there are no program funds in FY10. The 
MRM program will terminate within its remaining FY09 program funding. 
However, it is expected that the cost for restarting and completing the 
MRM program would increase.
                                 ______
                                 
                     QUESTION SUBMITTED BY MR. NYE
    Mr. Nye. I would like to commend the Army for its hard work and 
initiative developing the Third Generation Extended Cold Weather 
Clothing System (GEN III ECWCS). I strongly believe the system fills an 
essential role in ensuring the safety and health of our soldiers while 
bolstering mission readiness and combat capability. I understand GEN 
III ECWCS has proven to be a combat advantage for our troops. Compared 
to the previous clothing system, GEN III reduces the weight borne by 
the soldier by 7 lbs and reduces bulk volume by 33%. However, I remain 
concerned about the Army's present and future plans to fully field and 
fund the GEN III ECWCS System.
    What is the Army's requirement for GEN III ECWCS and how does the 
Army plan to fund the deployment of GEN III in future years in the 
absence of supplemental funds?
    Secretary Geren and General Casey. The Army requirement to provide 
its Soldiers effective protection from the environment without 
hindering their performance is documented in our Core Soldier System 
Capability Production Document (CPD). The Third Generation Extended 
Cold Weather Clothing System (GEN III ECWCS) supports this requirement 
as a product improvement over previously fielded Soldier items. At this 
time, one set of GEN III ECWCS is fielded per deploying Soldier as part 
of our Rapid Fielding Initiative. The Army's future requirement for GEN 
III ECWCS is currently being staffed as part of an update to the Core 
Soldier System CPD, and will likely be one set per Soldier.
    Current GEN III ECWCS fielding is supported primarily with 
supplemental funding; however, there is limited sustainment funding for 
select layers as part of Army Clothing Bag and Central Issue Facility 
support. For future years the Army Staff is in the process of 
developing fielding and sustainment processes that will be integrated 
into the Equipping and Sustainment Program Objective Memorandum 
requests for Fiscal Years 2012 and beyond.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BOREN
    Mr. Boren. Please describe the Operational Needs Statement (ONS) 
and the tactical situation in Afghanistan that necessitates a precision 
mortar solution?
    Secretary Geren. The requirement for precision capability within a 
120mm mortar system answers a capability gap for highly accurate 
precision fire when other means of precision fire are not readily 
available. Other platforms with precision capability include M109 and 
M777 Howitzers with Excalibur, Multiple-Launch Rocket Systems (MLRS) 
with Guided-MLRS, in addition to Army and Air Force aviation assets. 
Precision guided munitions will provide an organic capability to all 
units assigned with 120mm Mortars. More extensive fielding of this 
capability provides for greater precision area coverage within the 
Theater of Operations. The smaller warhead and corresponding blast 
radius of a 120mm precision round gives the Warfighter more targeting 
flexibility through the advantage of less potential collateral damage. 
Additionally, the 120mm Mortar's relatively small size to other 
platforms enables greater battlefield mobility.
    Mr. Boren. I am concerned to learn that the APMI schedule has 
slipped several weeks. Is urgency the priority in fielding this 
capability and if so, when does the Army intend to deliver the first 
production round to Soldiers in Afghanistan?
    Secretary Geren. The Accelerated Precision Mortar Initiative (APMI) 
demonstration, completed during the April-May 2009 timeframe at Yuma 
Proving Grounds, was delayed by two weeks. However, this delay did not 
in turn delay the projected fielding of initial APMI rounds to OEF. The 
objective of the APMI fielding schedule remains to deliver the first 
APMI rounds to our Soldiers in Afghanistan within 11 months of receipt 
of funding from the Army's Fiscal Year 2009 (FY09) Omnibus 
reprogramming request. The Army is evaluating alternative resourcing 
solutions to ensure we meet the Warfighter's urgent operational need 
for to APMI as quickly as possible within receipt of Omnibus funds.
    Mr. Boren. How does the Army intend to fund this initiative?
    Secretary Geren. The Army requested FY09 funding as part of the 
Omnibus Reprogramming. Additional requirements for RDTE and Procurement 
funds in FY10 will require reprogramming actions. Funding requirements 
for FY11 and beyond will be addressed in annual budget requests.
    Mr. Boren. Please describe for the record the performance 
associated with the APMI demonstrations now underway at Yuma. Please 
include a description of each test shot, to include range, temperature 
conditioning, elevation change and whether meteorological data was 
utilized in computing a fire solution. Include threshold and objective 
requirements for the munition and indicate whether the performance of 
each test shot satisfied these requirements.
    Secretary Geren. The Army completed the APMI demonstrations in May 
2009. Three of the four competing contractors had designs mature enough 
to proceed into the next phase. Since the Army has not selected the 
final design, the test results from the APMI demonstration are 
considered competition sensitive and cannot be publically released at 
this time. The threshold accuracy is 10 meters Circular Error Probable 
(CEP); objective accuracy is five meters CEP. CEP is a statistical 
distribution where 50 percent of the rounds land within the radius of a 
circle and 50 percent outside.
    Mr. Boren. The APMI acquisition strategy proposes a three-month 
Phase I technology demonstration contract between two contractors 
following completion of the Yuma testing in May. Typically, tech demos 
are at least one year efforts that allow contractors to significantly 
refine and rework designs, addressing issues raised during the initial 
test phase. In this case, it appears that the truncated Phase I tech 
demo will allow very little opportunity to modify the design, consuming 
dollars and time that could be used to more rapidly field rounds to 
theater. In the event a technically superior round is demonstrated in 
May, will the Army forgo Phase I and proceed directly to Phase II to 
accelerate availability of this needed munition?
    Secretary Geren. The Army has established an aggressive program 
schedule in order to respond to the approved Operational Needs 
Statement (ONS) as rapidly as possible. Based on the results of the May 
2009 demonstration, the Army intends, subject to availability of 
funding, to award three follow-on contracts for Phase I. The short 
timeframe for Phase I is possible based on the maturity of the 
demonstrated designs coming out of the demonstration. The down-select 
decision to go from Phase I to a single design in Phase II & production 
will be based on an established set of criteria that includes the key 
program elements of technical, cost, and schedule to deliver sufficient 
quantity to meet the ONS requirement.
    Mr. Boren. Background: Excalibur is a GPS-guided 155mm artillery 
round and can be fired from the M109A6 Paladin and the M777 Lightweight 
Howitzer as well as from the Non-Line of Sight Cannon. The first 
increment of Excalibur, XM982 1A1, was fielded to Iraq in May 2007 in 
response to an Urgent Needs Statement for precision cannon munitions in 
Iraq. The Objective accuracy requirement for Excalibur 1A1 is 10 meters 
Circular Error Probable and performance in the field has far exceeded 
this requirement. Procurement of the second increment of Excalibur, 
1A2, will begin in FY09 and a competition is underway for the third 
increment, intended to offer objective accuracy of 6 meters CEP with a 
lower unit cost.
    Does the Army intend to review Excalibur compatibility and support 
for meeting the existing objective range requirements of the NLOS-
Cannon as part of the TRADOC FCS realignment?
    Secretary Geren. The US Army Training and Doctrine Command is 
currently reviewing capability gaps of the current force to guide 
development of requirements for a future Ground Combat Vehicle as part 
of FCS realignment. The Excalibur Ib Operational Requirements Document 
objective range requirement is 40km and the review indicates the 
objective range requirement remains valid.
    The Army intends to remain committed to our requirement for the 
full compatibility of Excalibur as a key enabler (as outlined in our 
requirements documents) for the M777 Lightweight Howitzer, M109A6 
Paladin, Paladin Integrated Management (PIM) Howitzer and any future 
indirect fire cannon.
    Mr. Boren. As the Army moves increasingly to precision fire 
solutions, are the logistics and support function savings being 
weighted in evaluating unit costs? The requirement for certain 
Excalibur missions calls for defeating a target with two rounds; 
unguided artillery would traditionally require some 150 rounds to 
achieve the same effect, with likely significant collateral damage. 
Aside from the direct reduction in the number of rounds fired, fewer 
artillery tubes may be required for the same effects, fewer trucks may 
be required to move pallets of ammo, and fewer gallons of fuel are 
consumed. How is the Army accounting for the internal savings 
associated with precision fires?
    Secretary Geren. Costs are considered when the Army evaluates all 
of the potential solutions available to meet our validated 
requirements, including changes in doctrine, tactics, techniques, and 
procedures, and material solutions. If the Army determines that a 
material solution is required to meet the requirement, complete 
lifecycle costs estimates are prepared and reviewed at each milestone 
decision review. These lifecycle estimates include costs associated 
with the logistics and support functions required to support that 
material solution. In that regard, logistics and support costs are 
considered and weighed in the evaluation of unit costs.
    Mr. Boren. A recent open letter from former artillery commanders 
bemoaned a lack of training and the atrophying of experience in 
artillery units. Are tactics, training and procedures being updated to 
address the new flexibility that precision fires offer? Are Excalibur 
rounds being used regularly at the National Training Center as part of 
unit workups prior to deployment?
    Secretary Geren. Yes, tactics, techniques, and procedures are 
continually updated to address the unique capabilities that precision 
guided munitions offer at both the Fires Center of Excellence and 
tactical field artillery units. Precision guided munitions mission 
considerations and target effects have been integrated in all relevant 
courses to date.
    Excalibur munitions are used or replicated routinely at the 
Maneuver Combat Training Centers (MCTCs) to prepare units and Soldiers 
for deployment. Incorporating live fire of Excalibur at the MCTCs 
enables both the gunnery team and maneuver commander to execute 
precision munitions mission and see the effects on the ground.

                                  <all>

</pre></body></html>
